<html>
<title> - THE CRUISE PASSENGER PROTECTION ACT (S. 1340): IMPROVING CONSUMER PROTECTIONS FOR CRUISE PASSENGERS</title>
<body><pre>[Senate Hearing 113-488]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-488
 
                  THE CRUISE PASSENGER PROTECTION ACT
    (S. 1340): IMPROVING CONSUMER PROTECTIONS FOR CRUISE PASSENGERS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and
                             Transportation

                        U.S. GOVERNMENT PRINTING OFFICE

91-521 PDF                       WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator


                            C O N T E N T S

                              ----------
                                                                   Page
Hearing held on July 23, 2014....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Wicker......................................     4
Statement of Senator Begich......................................    25
Statement of Senator Blumenthal..................................    27
    Letter dated July 23, 2014 from Congressman Jim Himes (CT-4)
      to Chairman Rockefeller and Ranking Member Thune...........    29

                               Witnesses

Laurie Dishman, International Cruise Victims Association, Victim
  of Crime.......................................................     6
    Prepared statement...........................................     8
Philip M. Gerson, International Cruise Victims Association Board
  Member; Chairman, National Center for Victims of Crime, and
  Attorney and Senior Partner, Gerson and Schwartz, on behalf of
  a Victim of a Crime............................................    10
    Prepared statement...........................................    12
Amanda Butler....................................................    14
    Prepared statement...........................................    16
Kimberly A. Ware.................................................    21
    Prepared statement...........................................    22

                                Appendix

Response to written questions submitted by Hon. John D.
  Rockefeller IV to:
    Laurie Dishman...............................................    35
    Philip M. Gerson.............................................    36

 
                  THE CRUISE PASSENGER PROTECTION ACT


 
    (S. 1340): IMPROVING CONSUMER PROTECTIONS FOR CRUISE PASSENGERS

                              ----------


                        WEDNESDAY, JULY 23, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:45 p.m. in room
SR-253, Russell Senate Office Building, Hon. John D.
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV,
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. I'd like to begin this hearing in the same
way I started the hearing I held on the cruise industry last
year, by saying that most people who take cruise ship vacations
have a good experience. Millions of Americans--I'd like to have
silence, please. Millions of Americans go on cruises every
year. Most of the time they have a nice trip and they return
home safely, just like the cruise companies promise in their
advertisements.
    But once in a while things can go terribly wrong. Ships
catch fire, passengers fall overboard or get sick, crew members
sexually assault passengers. Incidents like these are,
unfortunately, also a part of the cruise experience.
    I'm very honored today to welcome four witnesses who will
help us understand firsthand the consequences of these
incidents. We've talked about them in sort of a larger way, but
we have not had the direct testimony of those affected by it
and those who represent some who were affected by it. So that's
what this hearing is for.
    The fact that some Senators have left, don't let that
bother you. Markups are unusual and that's why they had to
come, then they had to go do something else. But you're the
point of all of this and I want that to be very, very clear to
you.
    As I said, I'm very glad to welcome four witnesses who will
help us understand firsthand the consequences of these
incidents and what they had to go through. I recognize that
this is not an easy subject to talk about. Let that be said. So
that it's painful, and however you reflect that pain, the
Committee understands it, welcomes it, joins you in the
difficulty of coming up here and testifying before a Senate
committee, although it's really not that difficult, after all.
    The cruise industry, I am happy to say, is not happy that
I'm holding this hearing. They're very unhappy. Those companies
don't like it when Congress and the media talk about the risks
of taking a cruise vacation. They have repeatedly told this
committee in both public hearings and private meetings that
cruise ships and trips are safe, that's it, no need to do
anything.
    But the facts tell a different story. That doesn't mean
that they're--as I said, the average person will have a good
experience. But you don't judge a steel plant by 500 workers
not being hurt, but 30 workers being very badly hurt. I mean,
it's the problems that you have to address.
    So the facts tell a different story. Last year our
committee released a report that found hundreds of cruise
crimes were not being publicly reported--very basic negligence.
We have had several hearings where expert witnesses testified
about ongoing safety and security problems, like wrecks, fires,
crimes, onboard these vessels. And we continue to see the same
issues continuing.
    I'm fed up with it. I'm fed up with them trying to
stonewall us. Yes, they have lots of money and they have lots
of lobbyists, and we're going to win this one.
    Almost exactly one year ago, Carnival's president told this
committee that his company's number one priority is, quote,
``the safety and security of our guests.'' He explained to us
how the cruise lines have every incentive to make sure their
customers have a good experience.
    That sounds nice in a Congressional hearing, but it's
little comfort to the many people whose vacations or in a
number of cases lives have been ruined by the cruise line's
failure to deliver on their promises. That is, if they had a
chance to see what the promises were, which is a problem in and
of itself, and we'll talk about that.
    In spite of the evidence that crimes, fires, mechanical
failures, drownings, and mishandled medical emergencies occur
with disturbing regularity on cruise ships, the industry
continues to deny that it has a problem, any problem. It just
denies that it has any problems. It has circled the wagons and
reflexively fought all efforts to provide consumers more
information about the risks of cruise ship vacations.
    I don't mind if they talk about the joys and the pleasures,
but people have to talk about the risks, too. It's not fair if
they don't.
    They often refer to New York City--they have all kinds of
problems, but they don't advertise their problems. Yes, but
when you are on a cruise ship out in the ocean somewhere there
isn't a hospital next door, there isn't a police station to go
to. You're just on an island all by yourself, and it's a very
different feeling than being a part of a community which can
come to help.
    So that's where my legislation comes in. Last year, after
witnessing the Costa Concordia tragedy, the Carnival Triumph
debacle, and learning about the underreported number of crimes
on cruise ships, I introduced something called the Cruise
Passenger Protection Act of 2013. In this bill, I have proposed
making it easier for consumers to report crimes and make
complaints about problems on cruise ships.
    Everything is about making it easier. If you make it hard,
a lot of people just won't do it. And unfortunately, when you
have an encapsulated environment like a cruise ship trip you
have to be able to report. You just have to be able to do that,
and do it fairly easily.
    So we make it easier to report. I've also proposed
simplifying ticket contracts and publishing more information
about crimes and other problems on cruise ships. You know what
I'm talking about when I talk about the ticket problem. You
have to peel layers of paper away, and you're just signing a
ticket. But it's underneath that somewhere that it says: Oh, by
the way, you give up your liability. That is not nice. It's a
terrible thing to do to passengers.
    These aren't crazy ideas that I'm suggesting. They're
common sense protections that consumers already have if they
travel, for example, in airplanes or if they travel by rail.
But the cruise industry vehemently opposes my bill, even the
bill's simplest provisions like reporting crimes against minors
or putting up a website at the Department of Transportation
that consumers could consult while they're making their
vacation plans, so they can see what the problems might be and
what the advantages might be, so they're making an informed
decision.
    When an industry opposes even the most basic public
disclosure about its conduct, it suggests to me, frankly, that
it has something to hide.
    Our witnesses today are going to help us understand why it
is so important for consumers to have this information. Unlike
people vacationing on land, cruise ship passengers who are
victims of crimes do not have immediate access to law
enforcement. Well, you say, well, sure, they're out at sea.
Yes, but they're out at sea and they don't have access to law
enforcement. That's pretty basic. And if they suffer a health
emergency on a cruise, they could be hundreds of miles away
from a health facility that operates at U.S. standards or even
below U.S. standards, just something called a hospital.
    Our witnesses are also going to tell us that, in spite of
the cruise industry's talk about taking responsibility for
their passengers, cruise companies sometimes treat their
customers with shocking callousness and disregard. My words are
harsh because I'm angry about this.
    Four witnesses are appearing before this committee today
and I thank them. But there are many, many more people, as you
all know, who could have shared their experiences and have with
my staff. Ken Carver, Jamie Barnett, and countless others have
fought for years to help protect others from needless tragedy.
I would like to thank everybody who has been willing to step
forward and tell us their stories despite, as I indicated, the
painful and sometimes tragic circumstances, not just that they
happened, but having to recall them verbally and publicly.
    Having accurate statistics about crimes and other incidents
is important, and it's even more important to understand the
human cost of the safety and security problems that this
industry is not fully acknowledging. This hearing, along with
other hearings and inquiries I've made into the cruise industry
since I've been Chairman, are about one thing, and it's called
accountability, being honest with people.
    I know the cruise companies think that I am singling them
out, as they say, for special scrutiny. But I assure them that
is not the case. I have never hesitated to ask companies tough
questions when I think their business practices are hurting
consumers. That's my job. That's all of our jobs. We have
oversight. That's the main reason we exist as a Commerce
Committee, is to have oversight and to try and make things
better.
    This process of asking tough questions is in fact called
``oversight.'' It's one of the most important jobs
Congressional committees have, maybe the most important. When
it comes to the cruise industry, we've been doing our job. We
have held hearings, we have analyzed the data, and we have
talked to many different people with experiences in this
industry.
    This oversight has led us very clearly to the conclusion
that we have to act. We need legislation to protect consumers.
For anyone on this committee who still hasn't gotten the
message, I urge you to listen closely today as these witnesses
bravely share their experiences.
    I thank everybody. But I have one closing statement. To the
cruise industry: Instead of fighting this process, I encourage
you to listen carefully to the testimony today. I ask you to
honestly consider whether there are steps that you can take to
better protect the health and safety of your passengers. Look,
the cruise industry is booming. People love to travel. People
love to go on those ships, and I don't begrudge them for that.
My own son has done that. They have a right to do that. But
they also have a responsibility, since they're under our
jurisdiction, to do it safely and properly for everyone. I
believe there are steps that they could take, and I will
continue pushing to make those things happen.
    I now call upon the distinguished Senator from Mississippi,
Roger Wicker.

              STATEMENT OF HON. ROGER F. WICKER,
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman. I think you've
made a number of very important and valid points.
    I also want to thank the witnesses for being here. As you
said, Mr. Chairman, it may be difficult for them to share their
experiences, but it's important that they do so, and I
appreciate their courage in coming forward and being able to
share with us today some information we need.
    The Chair has billed this hearing as a forum to discuss his
bill, the Cruise Ship Passenger Protection Act, S. 1340. We
need to protect passengers from crime. We need to ensure access
to medical care while on the high seas. These are important and
worthy issues.
    I would say I think that it would be best if we consider
this legislation as a stand-alone bill and not in connection
with the Coast Guard Authorization Act. I don't know what the
Chair's approach to this is going to be, but I do not believe
the reauthorization act is the appropriate vehicle for a cruise
passenger protection bill.
    In my judgment, we ought to consider cruise ship passenger
protection legislation separately from the Coast Guard
Authorization Act. Congress deserves the opportunity to examine
how we can strengthen the transparency of crimes on the high
seas and the public deserves a discussion with full
Congressional attention to making cruising safer for Americans
and foreign tourists while visiting U.S. ports.
    There are many areas in which the cruise ship industry is
receiving criticism, including the effectiveness of crime
prevention, their response to crime, sexual assault, the report
of incidents, and tax concerns. I hope that safety standards
like those that could have been beneficial in the treatment of
Violet Butler are a priority in this discussion.
    There are cruise ships under way with maximum capacities
larger than many of our small towns and cities in America. Some
cruise ships have more than 6,000 passengers and some 2,000
staff along with them. And yet they only require two medical
professionals onboard. Imagine a small town of that size, for
example, in rural Mississippi. Imagine my native home of
Pontotoc, Mississippi, where there are some 5,700 people
living, and what if we only had two medical professionals in
the whole town? As a matter of fact, in my native City of
Pontotoc we have 29 health care professionals, 21 members of
the police force, as well as 24-hour physician care in the
emergency room. So that gives me great pause, to think that a
cruise ship containing 8,000 souls would have only two medical
professionals aboard.
    So we need transparency. We need to promote self-correcting
behavior. And we all have a right to hear the stories of the
victims.
    We do not need to paint the entire industry with a broad
brush because of a few bad actors. I think the Chair
acknowledges that. But we should look for ways to partner with
the industry to make passenger cruises a safe environment for
our American passengers and tourists. I encourage the Cruise
Lines International Association to work with Congress to find a
market-driven solution.
    So thank you, Mr. Chairman, and I look forward now to
getting to the testimony of our witnesses.
    The Chairman. Thank you, Senator Wicker, very much. The
Senator and I come from states with lots of rural places. My
sort of home town has about 270 people. So you're urban
compared to us.
    Let's go right to the witnesses. Laurie Dishman had a very,
very bad experience as a Royal Caribbean passenger in 2006.
She's also an International Cruise Victims Association Board
Member, which means she wants to follow through on that.
    I'll read each of the four and then call on them one by
one.
    Phil Gerson is a lawyer who represented a 15-year-old
minor, 15-year-old minor, who was raped on a cruise ship. He is
also on that same Board and also Chairman of the National
Center for Victims of Crime. And I'm grateful that he is here.
    Amanda Butler, who I just met outside, whose mother
suffered a medical emergency on a Carnival cruise in 2013 and
likely passed away from a lack of adequate medical care, I'm
proud that you're here.
    And Kim Ware, who was a passenger on the Carnival Triumph
that caught fire in 2013 and was stranded for four days.
    Now, those are easy things for me to say, but they're very
hard to have gone through and even to talk about. So let's get
at it, and I'm going to call on Laurie Dishman, and thank you
so much for being here.

   STATEMENT OF LAURIE DISHMAN, INTERNATIONAL CRUISE VICTIMS
                  ASSOCIATION, VICTIM OF CRIME

    Ms. Dishman. Hello. My name is Laurie Dishman. I would like
to thank the Chairman and the Committee for convening this
hearing and inviting me to Washington. It is quite an honor and
privilege to be here today.
    Senator Rockefeller, I am a cruise ship rape victim. I have
an experience to tell you about. A cruise line employee raped
me during a vacation on a Royal Caribbean cruise to Mexico. The
crew member was working as a security guard in the disco on the
ship. He approached me and asked me my name and cabin number.
He later snuck down to my cabin and forced his way in. I
resisted and struggled. He strangled me and brutally raped me.
    I awoke with ligature marks around my neck and my tampon
was impacted during the brutal rape. I did not know what to do.
I did not know who to turn to. There were no police on the
ship, I learned. I was hesitant to call and report the crime
because he wore a security badge.
    Just 3 days earlier, I was looking forward to this cruise.
The glossy colored brochures advertised an adventure every day,
an experience to remember. I was celebrating my birthday and 30
years of friendship with my best friend Michelle. We'd known
each other since we were 5 years old. I was so excited.
    But in the evening I would find myself in the middle of a
nightmare. Michelle called the purser desk to report the crime.
A security officer and the head purser, both men, came to the
cabin and sat on the bed where the rape occurred. I tried to
tell them what had happened, but they insisted that I prepare a
written statement and sign it.
    They left without securing the cabin or taking me to the
ship infirmary. After I had finished my statement, the security
officer took me and Michelle to the infirmary. The doctor
handed us two black garbage bags and asked us to go back to the
cabin and collect the evidence. We tried to preserve hair and
other items, folding the pillowcases and sheets, not really
really what we were supposed to be doing.
    We returned to the infirmary along the public hallways,
with still all men surrounding us. It was a painful and
humiliating ordeal.
    The ship doctor eventually performed the rape kit and
examined my neck, but failed to administer anti-retroviral
medications. I was returned to my cabin after the ordeal in the
ship infirmary. I was traumatized to be back at the scene of
the crime. I could not take my eyes off the mattress where the
crime occurred. Stripped of its sheets, covers and pillowcases,
the mattress seemed naked and dirty to me. It looked like I
felt.
    I could not stop thinking about what had just happened to
me over and over again. I did not know what would happen next.
I just wanted to close my eyes and go home.
    I was eventually given three options: to get off the ship
in Mexico and report it to the local port authorities; to stay
on the cruise ship--stay on the cruise ship and report it to
the FBI when we returned; or fly back to L.A. and report the
rape to the FBI. I opted to fly back to Los Angeles as soon as
I could get off the ship.
    Once in L.A., I was questioned extensively by the FBI and
they photographed the bruisings around my neck. A few days
later, the FBI boarded the ship when it returned to port,
together with the cruise line defense attorneys. The crew
member denied even going into my cabin. He did not pass the
polygraph. But the FBI said it was just a ``She said, he said''
case and declined to arrest him. The Department of Justice
declined to prosecute on that same day.
    The cruise ship then set sail again full of passengers,
with the rapist onboard. Two days later, I learned the crew
member changed his story and admitted going to my cabin. It was
only then that the cruise line confined him to his cabin and
then put a security guard outside his door, and then terminated
his employment and flew him home to Trinidad.
    With nowhere to turn, I hired a maritime lawyer in Miami.
Why Miami? Because even though I live in Sacramento, the cruise
left from L.A., the crime occurred in international waters, but
the ticket says that you need to find an attorney in Miami.
    My attorney found out many things that surprised and
angered me. The security guard was actually a janitor who the
cruise line called a ``cleaning specialist,'' who was paid $550
a month. He was assigned to act in the ``security'' department
because of the cruise ship's limited number of legitimate
guards on its staff. He had no training or experience at all as
a security guard.
    Royal Caribbean records--my attorney uncovered revealed an
employee history which included lying, falsification of
records, insubordination, and anger management, and he also had
sexually harassed two girls 6 weeks before he raped me. And
they put him in a security guard uniform.
    We also learned that on the night in question a witness
observed him drinking beers given to him by the cruise line
bartenders.
    Royal Caribbean, pursuant to court orders that my attorney
received, stated that the cruise line had studied the problem
of sexual assault on their ships as far back as 1999. The
outside experts retained by the cruise line concluded that
sexual misconduct occurred frequently. Now, the head security
guard that came in the cabin told me: Laurie, this never
happens. But the cruise line ignored what their experts told
them by telling the public that crimes are very rare.
    In 2007, I joined the International Cruise Victims and I am
now a member of the ICV board. I have testified in the past
before the House of Representatives in support of the Cruise
Vessel Security and Safety Act. Today, I am joined with the
Chairman of ICV, board members, and friends of ICV.
    In closing, cruise consumers have virtually no rights or
protections. I know this firsthand. I know exactly how it feels
to have no rights and to be victimized by the cruise lines a
second time after their employee assaulted me. Certainly our
Congress can require such a powerful industry to timely and
accurately report crimes against cruise ship guests, provide a
clear and accurate statement of our rights embodied in a ticket
without incomprehensible legal mumbo-jumbo, hire competent
medical providers, and provide protection under a consumer
agency which will help us in our time of need.
    Thank you.
    [The prepared statement of Ms. Dishman follows:]

      Prepared Statement of Laurie Dishman, Sacramento California
    Hello, my name is Laurie Dishman. I would like to thank the
Chairman and the members of this committee for convening this hearing
and inviting me to Washington. It is quite an honor and a privilege to
be here today.
    Senator Rockefeller, I am a cruise ship rape victim. I have an
experience to tell you about.
    A cruise line employee raped me during a vacation on a Royal
Caribbean cruise to Mexico. The crew member was working as a security
guard in a disco on the ship. He approached me and asked me my name and
cabin number. He later snuck down to my cabin and forced his way in. I
resisted and struggled. He strangled me and raped me. I awoke with
ligature marks around my neck. He impacted my tampon during the violent
rape.
    I did not know what to do.
    I did not know who to turn to.
    There were no police on the ship, I learned. I was hesitant to call
and report the crime to the security department because a crew member
wearing a security badge has just raped me.
    No one explained any rape protocols to me. No one provided me with
a statement of my rights. I was unaware if I even had any rights.
    Just three days earlier, I was looking forward to this cruise. The
glossy color brochures advertised an ``adventure every day'' and an
``experience to remember.'' I was celebrating my birthday, as well as
thirty years of friendship with my best friend, Michelle. I've known
Michelle since we were both five years old. I was so excited.
    But in the evening, I found myself in the middle of a nightmare.
Michelle called the purser's desk to report the crime. A security
officer and the head purser (both men) appeared at our cabin door. They
sat on the bed where the rape occurred. I told them what happened, but
they insisted that I prepare a written statement and sign it. They left
without securing the cabin or taking me to the ship infirmary.
    After I had finished my statement, the security officer took me and
Michelle to the infirmary. A doctor (a man) handed me two large, black
trash bags. He told us to return to the cabin and collect evidence.
Michelle and I returned to the cabin. We tried to preserve hair and
other items by carefully folding the sheets and pillow cases and
placing them into the bags. We returned to the infirmary along the
public hallways. We then watched the nurses take everything out of the
trash bags, unfold the sheets and put everything into other bags.
    It was a painful and humiliating ordeal.
    The ship doctor eventually performed a rape kit and examined my
neck, but failed to administer anti-retroviral medications to me. The
procedures seemed disorganized and unprofessional. None of the medical
staff were U.S. citizens. The experience was degrading.
    I was returned to my cabin after the ordeal in the ship infirmary.
I was traumatized to be back at the scene of the crime. I could not
take my eyes off of the mattress where the crime occurred, stripped of
its sheets, covers and pillow cases. The mattress seemed naked and
dirty to me. It looked like I felt. I could not stop thinking about
what had just happened to me over-and-over again.
    I did not know what would happen next.
    I just wanted to close my eyes and go home.
    I was eventually instructed to meet with officers in an office
where the questioning continued. Like the Security Officer, Head
Purser, and cruise ship doctor, the officers were all men.
    I was eventually given three options: (1) get off the ship when it
reached Mexico and report the crime to the Mexican police; (2) stay on
the cruise ship and report the crime to the FBI when the ship returned
to port in Los Angeles; or (3) fly back to L.A. and report the rape to
the FBI.
    I opted to fly back to Los Angeles as soon as I could get off of
the ship.
    Once in L.A, I was questioned extensively by the FBI. They
photographed the bruising around my neck.
    Two days later the FBI boarded the ship when it returned to port,
together with the cruise line defense lawyers. The crew member denied
even going into my cabin. He did not pass a polygraph. But the FBI said
it was just a ``she said/he said'' situation and declined to arrest
him. The Department of Justice declined to prosecute on the same day.
    The cruise ship then set sail again, full of passengers and the
rapist onboard.
    Two days later, I learned, the crew member changed his story. He
claimed he had a romantic, consensual encounter with me. It was only
then that the cruise line confined him in a cabin and put a security
guard at his door. It was only then that the cruise line terminated him
and flew him home to Trinidad.
    With nowhere to turn, I hired a maritime lawyer in Miami. Why
Miami? Because even though I live in Sacramento, and the cruise left
from L.A., and the crime occurred in international waters heading to
Mexico, the cruise line passenger ticket says that all passengers have
to file suit in Miami. I subsequently learned that there are virtually
no passenger rights at all contained in the cruise line tickets--only
limitations, exclusions, disclaimers, and other fine print which act as
a protective shield for the benefit of the cruise industry.
    My attorney found out many things that surprised and angered me.
    The ``security guard'' was actually a janitor, who the cruise line
called a ``cleaning specialist.'' He was paid less than $550 a month.
He was assigned to act in the ``security'' department because the
cruise ship has a limited number of legitimate guards on its staff. He
had no training or experience at all as a security guard.
    Moreover, the Royal Caribbean records my attorney uncovered
revealed an employee history which included lying, falsification of
records, insubordination, anger management problems and sexual
harassment of girls (who were passengers) during prior cruises. We also
learned that on the night in question, witnesses observed him drinking
beers given to him by the cruise line bartenders in the disco.
    My attorney obtained reports from Royal Caribbean, pursuant to
court orders, stating that the cruise line had studied the problem of
sexual assaults on their ships as far back as 1999. The outside experts
retained by the cruise line concluded that sexual misconduct occurred
``frequently and the victims had no advocates to support them.'' But
the cruise line ignored what their own experts concluded, telling the
public that such crimes are ``rare.''
    The cruise industry has grown tremendously in the last ten years.
There will be more and more crimes as the industry grows. Twenty-one
(21) million passengers are expected to cruise this year. Royal
Caribbean now has the largest cruise ships in the world, with two of
its ships (the Allure of the Seas and the Oasis of the Seas) carrying
6,500 passengers and over 2,000 crew members each. There is no doubt
that women and children will continue to be victimized on these
gigantic ships.
    In 2007, I joined the International Cruise Victims. I am now a
member of the ICV's Board of Directors. I have testified in the past
before the House of Representatives in support of the Cruise Vessel
Security and Safety Act.
    Notwithstanding our best efforts in the past, there remain serious
shortcomings in the reporting of crimes and the protection of families
whose choose to spend their vacations on cruise ships. Let me provide
this committee with a few examples:

  <bullet> There is substantial under-reporting of crimes on cruise
        ships. For example, in 2011, there were 563 alleged crimes
        reported by the cruise lines but only 105 publicly disclosed.

  <bullet> Few cruise ship crimes are investigated and prosecuted. In
        2012, the FBI opened only 18 cases and there were only 4
        convictions.

  <bullet> The cruise lines do not disclose when a crime involves a
        minor. Yes, there are sexual predators (both passengers and
        crew members) on cruise ships. Passengers deserve to know if
        children have been sexually abused in child daycare centers and
        in their cabins on prior cruises.

  <bullet> The medical care on cruise ships is often substandard.
        Cruise lines try to isolate themselves when they main or kill
        passengers through incompetent doctors and bad medical care.
        Most cruise lines claim that ship doctors are ``independent
        contractors'' for whom they are not liable. Few consumers
        understand this, until it is too late.

  <bullet> The cruise ship passenger tickets, drafted by cruise line
        defense lawyers, are one-sided, unfair and entirely anti-
        consumer and pro-cruise line.

  <bullet> As matters now stand, there is no one in the Federal
        Government empowered to help cruise consumers.

    The cruise industry is strong and vibrant. Each year, there are
millions more passengers who cruise. The ships are becoming bigger and
bigger and carry more and more passengers. The cruise industry collects
some 35 to 40 billion dollars a year in ticket sales and onboard
purchases of excursions, casinos activities, spa and gift shop items,
and alcohol. And as you know, the cruise lines pay virtually no taxes
despite their great wealth and despite their use of our U.S. ports and
our Federal agencies. The cruise lines do not have to follow U.S. labor
laws, minimum wages or overtime laws, or occupational health and safety
laws. Tax loopholes protect the cruise lines from paying their fair
share.
    Cruise consumers, on the other hand, have virtually no rights or
protections. I know this first-hand. I know exactly how it feels to
have no rights and to be victimized by the cruise line a second time
after their employee assaulted me.
    Certainly our Congress can require such a powerful industry to:

  <bullet> timely and accurately report crimes against cruise ship
        guests;

  <bullet> provide a clear and accurate statement of our rights
        embodied in a ticket without incomprehensible legal mumbo-
        jumbo;

  <bullet> hire competent medical providers; and

  <bullet> provide protection under a consumer agency which will help
        us in our time of need.

    Thank you.

    The Chairman. Thank you very much, Ms. Dishman. You did
that well and I know it was hard.
    We will have questions, but first we want to hear from Phil
Gerson, who, as I indicated, is a lawyer who represented a 15-
year-old minor who was raped on a cruise ship. Mr. Gerson.

      STATEMENT OF PHILIP M. GERSON, INTERNATIONAL CRUISE

          VICTIMS ASSOCIATION BOARD MEMBER, CHAIRMAN,

       NATIONAL CENTER FOR VICTIMS OF CRIME, AND ATTORNEY

            AND SENIOR PARTNER, GERSON AND SCHWARTZ,

                ON BEHALF OF A VICTIM OF A CRIME

    Mr. Gerson. Thank you. Mr. Chairman and members of the
Committee: my name is Philip Gerson. I'm a lawyer in Miami,
Florida. For more than 40 years my law practice has focused on
representing crime victims both at sea and on land. I
appreciate your invitation and your willingness to consider my
views in this August chamber. I will be brief. I will not read
to you from my written testimony, which states the case facts
about the incident the Chairman just referred to in more detail
than I will mention now. And I welcome any questions the
Senators may ask.
    The Cruise Passenger Protection Act should be passed. It is
far short of the needed solutions, but it is a next step on the
path to greater passenger safety. If you think that young women
are safe on cruise ships, think again. They're not. My 15-year-
old autistic teenage client was not supervised like she was on
land because her family thought she was safe. They were
vigilant in managing all of her activities scrupulously and on
the ship she was supervised in teen activities.
    On the last night of the cruise, the teen activities ended
early, but no one told her parents, and she was gullibly led
away by a sexual predator to his stateroom, where she was
brutally raped and attacked by a juvenile and an adult male.
    This occurred two years after the Cruise Vessel Safety and
Security Act of 2010 was signed into law. But despite that
fact, the offenders stateroom was ``Lysoled'' and cleaned
before law enforcement could gain access to it. Ship Security
officers said: ``Well, there was a mistake, we locked it out,
but the housekeepers somehow overrode the lockout not knowing
that a crime had been committed, and the evidence on the bed
clothes and other evidence in the room was lost.''
    Fortunately, Florida's State legislature has had the wisdom
to enact and to extend jurisdiction to crimes on cruise ships
when the ships leave and return from Florida ports. So there
were Fort Lauderdale-based Broward sheriff's deputies standing
on the pier when the ship returned to port, who took custody of
these two offenders, and they were punished under State law.
But had this occurred anywhere else besides Florida, they
likely would have gone unapprehended and unpunished.
    Now, what's worse about what happened is that the cruise
lines not only suppress the facts, but they foster a misleading
disinformation campaign, boasting that vacationers are safer at
sea than they are on land. Now, in some ways you are safer at
sea. You're not going to get hit by a car or a truck walking in
public places, nor is it likely that you're going to be shot by
an armed robber because there are no vehicles or guns allowed
on the ship.
    But sexual crimes like the one that my innocent teenage
client was the victim of are far too common, and the risks of
them are high. There are thousands of people onboard and there
are no police to deter crime or to stop a crime before it harms
somebody.
    Ship security officers are trained to protect ship owners,
not passengers, and that's exactly what they do. The real
answer in my view, based on my lifetime of experience in this
work, is that independent sea marshals should be placed on
cruise ships, a trivial cost in view of the large number of
people who are assembled on these floating city vacations.
    If we can't get that today, we can start now with DOT
empowerment to make the risks known. Truthful disclosure of
risks has been required by government for decades and it is a
part of the fundamental fairness which is the fabric of the
American society. Full disclosures of risks is a first step
toward improving safety.
    Very few travelers understand the legal relationship which
exists in the cruise contract. As passengers cross the gangway,
they surrender all legal rights to protect their own welfare
except as the cruise ticket allows them to. This is not an
informed consent. The ticket doesn't explain how the legal
relationship is different at sea from what we know it to be on
land. And it is not semantics when we refer to the ship's
captain as the master. The master is just that, and the
passengers have virtually no individual rights.
    The CLIA, the Cruise Line International Association, ``bill
of rights is illusory,'' it's empty, and it's meaningless. A
close reading of the cruise line tickets reveal a frightening
list of contractual and statutory disclaimers of any legal
responsibility for harms to passengers. The tickets say the
cruise line has no legal liability in port for any excursion
which they arrange, which they sell to the passengers, and
which they share fees with the tour operators with, but they
disclaim any responsibility.
    They say the same thing about the physician services that
they sell in shipboard medical clinics onboard. But if there's
medical negligence, they have no legal responsibility.
    There is also reference to statutory and international
maritime treaties which limit passenger rights and passenger
remedies when something goes wrong onboard, and neither the
cruise ticket nor the cruise line adequately inform the
passengers of the nature or extent of what they have given up
by crossing that gangway.
    The bill should be passed so that the outdated ``buyer
beware'' business relationships at sea are replaced with truth
in advertising, full disclosure, and informed consent, which
are the hallmarks of American life, required by government for
business and industry. Until Congress gives passengers more
protections, American nationals on cruise ships are just on
their own.
    I invite you to read my brief written statement, which
provides more details, so that I take no more time than is
necessary now, and I volunteer to assist in this process in any
way that I can in the future.
    [The prepared statement of Mr. Gerson follows:]

                 Prepared Statement of Philip M. Gerson
    I am a board certified civil trial lawyer. I have practiced in
Miami Florida since 1970. I represent individuals and families harmed
by the fault of others in state and Federal courts in Florida and
occasionally other states. My work is focused on civil remedies for
victims of crime. Along with other honorary and voluntary service
organization memberships I now sit as current board chair of the
National Center for Victims of Crime which is America's best known
training, education and advocacy non-profit devoted solely to serve the
needs of all crime victims. In addition, I am a member of the board of
the International Crime Victims Association, a non-profit world wide
organization made up of victims harmed on cruise ships. It is this work
which brings me to your committee to testify.
    The Cruise Passenger Protection Act should be passed to take an
important step forward for progress to enhanced safety and security for
cruise passengers. These benefits will enable the public to self-
protect by providing accurate factual data for travel decisions in the
free speech enabled advertising marketplace. In short, does a Disney
cruise have more dangers than a Disneyworld visit? Don't passengers
have a right to know? If so, shouldn't the data be readily available
and understandable?
    For many of my clients cruising has hidden dangers only congress
can expose. One client gave permission to talk about her experience. It
wasn't Disney but her experience was part of the cruise industry
vacation fantasy claim that people are safer at sea than on land.
    My client wanted a long white dress and a formal ceremony onboard a
Christmas--New Year's Caribbean cruise. She researched the cruise line
website and spoke in detail with sales representatives to make the
plans. It was not her first cruise on this line. But it was the first
time she brought her Asperger's syndrome, autistic spectrum teenage
daughter along. Of course, they were the most conspicuous passengers
onboard when the ceremony was performed on the first night at sea.
Dressed in her gown she went to the teen nightclub where ``mocktails''
are served to underage youths in a disco environment. She explained her
daughter's poor social skills and immature judgment but boasted about
the fifteen year old's superior intellectual functioning. Re-assured
all activities would be supervised just as the website advertised for
an ``award winning'' youth program my client let her daughter return
nightly from the teen club after closing to meet family members never
suspecting sexual crimes on cruises were a risk. Just under 9,000
people including crew were onboard. The population in numbers mirrored
a typical American small town with no law enforcement personnel and
poorly trained security officers whose jobs depend on pleasing their
employer not upon an oath to uphold laws, rules, or even good moral
judgment. The routine of meeting her mother, aunt or older sister after
nightclub closing fit the behavior model which helped the teen achieve
integrated social participation in school in her midwestern home state.
Following the rules was the structure she needed to minimize risk of
judgmental errors. On the last night of the cruise the family followed
the routine. But unlike the other nights the teen nightclub closed
early and the gullible young girl was enticed to willingly go to a
stateroom for a continuation of the ``party''. The other teens would be
going too or so she thought. And other youngsters did just after 2 a.m.
but when they arrived and knocked it was too late. My client had
already been attacked and raped by two foreign national passengers, one
a juvenile and the other a young adult. After multiple oral and vaginal
rapes she fought her attackers when she heard the other teens at the
stateroom door. After a struggle the door handle unlocked allowing a
group of others to push their way in. Rescued by her peers they found
their way to cruise line security officers who brought her to the ships
medical center. With mother present a rape kit was used. The security
officers claimed they securely locked the crime scene stateroom door
but could not explain why housekeepers were able to override the
security lockout and the next morning routinely clean the room
destroying all physical evidence of the crimes. My client was shocked
when I showed her evidence of prior sexual crimes onboard cruise ships.
She was angry when I showed her the crime scene preservation statute
passed on 2010 but not followed on January 3, 2012. Her research before
planning the cruise did not reveal any criminal history at sea. Like
others, she believed when she crossed the gangway and surrendered her
legal rights to the will of the master of the ship her family would be
safe. Unlike the land based environment the cruise line is in complete
control of all persons and property onboard. No one has the right or
power to do any more to protect or defend themselves than my innocent
client did by trying to fight off her attackers. Every other potential
measure for safety and security from crime is exclusively possessed and
can only be exercised by the cruise line. She wasn't safe. There was
danger. She could not let her child out of sight without risk. Nobody
told her that. She did not know that until she was educated by the
brutality of the attackers. Fortunately, Florida lawmakers have
exercised jurisdiction to criminalize sexual assault and other offenses
onboard vessels stopping at Florida ports. But passengers on tax haven
and regulatory vacuum foreign flagged vessels are victimized with no
deterrent threat for criminal actors if Florida is not part of the
cruise. Florida police were at the pier to take the offenders into
custody and punish them under state law. But almost every offender
escapes with impunity in the jurisdictional abyss which exists on the
high seas. Flag states care not about the security of cruise ship
passengers. International maritime organizations are guided by nautical
and commercial considerations not security from criminal victimization.
This recurring problem calls out the need for the United States to take
action. The Cruise Passenger Protection Act is a first step. After
these preliminary measures to understand the scope of the problem
preventative undertakings can be adopted.
    It is not in the economic interest of cruise lines to disclose much
less publicize crime at sea. CPPA improves the crime reporting
usefulness of the CVSSA. A consumer protection website and consumer
protection advisory committee are low burdens with substantial benefits
for the cruising public. The informed judgment of consumers has long
been a hallmark of American government. It is the role of government to
enable a neutral forum for public disclosure. Business and industry
have proved inadequate as both reporters of and advertising risks
inherent in their operations. Virtually every three letter agency of
the administrative branch fulfills a public need to funnel information
to consumers which they would not otherwise find readily available. The
American public is highly educated, smart, and intuitive. Given the
tools administrative agencies provide public understanding leads to
improved decision making and gives the public the voice in the
marketplace it deserves. Congress should not let us down so more suffer
like my clients described above.
    Cruise line passenger tickets typify the proverbial ``fine print''
colloquialism. The type is too small for many people to read. The
ticket language is available on line which can overcome this problem
for computer literate readers but few people even try to comprehend the
complex legal jargon printed on the ticket. As a lawyer, I can and do
understand the terminology and its meanings. In broad context the non-
negotiable take it or leave it ticket language empowers cruise lines to
do practically anything they want to do or not on the ship. No private
hospitality operator in the United States could have such expansive
rights. Nor does any vacationer on land expressly surrender the legal
rights like the all cruise ticket expansively contractually bind
passengers to accept. Buried but repeated in every permutation are
disclaimers by cruise lines for any responsibility for any vendor or
affiliate whom they alone select for passenger services onboard. These
empowerment and waiver provisions have been upheld by courts in a wide
range of lawsuit challenges over the last 20 years. Moreover, beyond
contractual limitations, international, maritime and foreign laws are
recited in the tickets obliging passenger consent to requirements and
limitations of remedies which only trained readers can comprehend. The
sum of these contract features means passengers have dramatically
different rights at sea compared to what most Americans expect as basic
on land. There is a compelling fairness rationale for legislative of
re-writing these contracts to protect the public and provide reasonable
remedies for wrongs at sea. CPPA does not take that step.
    The CPPA calls out for far less. Only a minimal plain language
disclosure is sought. Congress has mandated truth in lending, truth in
product labels, securities instrument risks, and countless other
examples of simplified disclosures to enhance consumer understanding.
It is not surprising the cruise industry objects to an informed
traveler. Not all, but many thoughtful travelers may weigh these risks
against alternative travel options and decide they would be safer,
healthier and have effective remedies for harm if they stayed on land.
    No one wants to curtail or even inhibit the unprecedented growth of
the cruise ship industry. Disclosure will merely permit the free market
forces to foster change so cruising safety and security through
competition become comparable with land based travel.
    The CPPA contains another important measure worthy of passage. Not
all flag states even require cruise ships to have medical professionals
onboard. Nevertheless, most all now do as they say in the Cruise
Passenger Bill of Rights. Surely, the voluntary acceptance of the
minimum medical standards for cruise ships promulgated by the American
College of Emergency Physicians was an important step forward taken to
address an alarm of a medical crisis at sea according to a study of the
American Bar Association. As the tickets contracts referenced above all
state, cruise lines benefit financially from sale of services in
onboard medical clinics with no burden of legal responsibility so under
current practice medical services are a risk free profit center.
    More study is needed. Larger ships come into service each year.
Floating resort cities must have adequate medical resources available
to meet foreseeable needs of passengers and crew. What they have now
varies widely. There is no uniformity for physician staffing or
training. Criminal victimization, accidental injury, epidemic outbreaks
of disease occur with regularity. Operational and navigational errors
compound the challenges for foreseeably needed medical preparedness and
response. Remarkably, cruise lines sell medical services to passengers
in onboard clinics but under archaic maritime law principles still
applicable have no legal responsibility to provide a minimum standard
of care. The ticket language only firms and strengthens this immunity.
So this largely unregulated industry benefits from medical care at sea
but has no legal duty for its failure. Many options to be studied can
remedy this growing problem. Existing agencies having relevant
expertise should study this problem before medical disasters claim the
health or lives of innocents. Quality medical care is a cornerstone of
American life and the public should not be exposed to harm when United
States based corporations take United States citizens outside the
territorial jurisdiction.

    The Chairman. Thank you, sir, very much.
    Amanda Butler, your mother suffered a medical emergency in
2013 on a Carnival cruise and, as I indicated, probably passed
away from a lack of adequate medical care.

                   STATEMENT OF AMANDA BUTLER

    Ms. Butler. Senator Rockefeller, members of the Committee:
I appreciate the opportunity to tell my mother's story, to
share what we have learned, and to offer recommendations from
our perspective in an effort to ensure that no other family
will go through what we had to experience.
    My mother experienced a catastrophic health event on a
family cruise April 18, 2013. She subsequently passed away on
May 4, with the cause of death listed as anoxic brain injury.
She was a woman who loved life, loved her family. She had a
generous heart. She was a faithful and devoted wife and mother
who was there to nurture her children, support her husband, and
provide care and kindness to many individuals in our community
of Columbus, Mississippi. In fact, more than 800 people came
from the community to her visitation.
    We had just returned from a shore excursion on April 18,
passed through security, and were planning events for the
evening when she collapsed in mid-sentence. She had no pulse.
She was not breathing.
    I ran to plead with security personnel in the area, but all
that they did was seal off the entrance and exit of the boat so
nobody could see that there was a problem and an event that had
happened. They did not step forward, period, to help my mother,
and no one indicated that they were calling for help.
    So I ran down the corridors in an attempt to find a
defibrillator or someone that could explain that we had a
medical emergency. A nurse arrived after my mother had been on
the ship floor for what American physicians are estimating
would be 15 minutes. The nurse had a radio, but no
defibrillator and no medical equipment when she arrived.
    She examined my mother and then she waited for a gurney to
arrive. She did not initiate CPR. My mother was taken into the
medical facility located within a distance that my father and
myself could have carried her had we been told.
    They had to unlock the doors, turn on the lights and the
computers, and prepare the tiny examination room for the
resuscitation process. They set up a portable defibrillator.
After four cycles, her pulse did return. Nevertheless, the
duration of time that she went without oxygen approached 32
minutes.
    Once resuscitated, we were instructed to leave the ship. We
did not have the option to stay. My father went to his room
with personnel to pack his bags and Carnival sent their
personnel into my room to gather my belongings. They made us
stay on the gangway, and after we got off of the water taxi we
had to wait on an ambulance to come and get her.
    One Carnival employee accompanied us, but no arrangements
were made with customs to expedite us as a medical emergency.
We were all processed as tourists, including my comatose
mother. The Carnival employee gave my father the telephone
number for the port authority and left us completely alone in a
foreign country to find our own way to transport my mother back
to the United States for additional medical treatment.
    Carnival's current contract states that they are not
responsible or liable for anything involving the welfare or
safety of its passengers. The company makes no assurances that
a physician will be available on a cruise. And it states that
medical care, in fact, may not be available at all or will be
delayed. The contract also states that Carnival is not
responsible for the actions of physicians and nurses, whom it
considers independent contractors.
    As it turned out, my mother's cardiac event was the type
that, had she received CPR in a timely manner, she would be
here today. My mother died needlessly because humane emergency
protocol was not followed or enforced.
    The contract was too small to read. The general public does
not understand all U.S. rights are surrendered to Carnival upon
entering that vessel. Had we known, our family would have never
boarded that ship.
    We offer the following recommendations to improve health
care. We know that some of these items are included in the
Cruise Vessel Security and Safety Act of 2010, but we have been
informed also that the medical requirements of that Act have
been very narrowly interpreted. Our recommendations would be:
    To modify the 2010 Act to add a section on general medical
care, with the following requirements: AED machines,
defibrillators. They should be placed throughout each ship,
with locations clearly designated and discussed during the
initial safety meeting. CPR training and certification should
be a requirement for all personnel on the ships. The personnel
must be trained on how to respond to medical or emergency
situations, including alerting and summoning medical assistance
and initial response to aid the passenger and family.
    The English language should be a requirement for personnel
on these vessels that have United States ports of call. At a
minimum, all personnel should be able to understand key words
such as ``emergency,'' ``help,'' and ``doctor.''
    24-hour health care is necessary, given that these ships
carry several thousand people per Cruise. The ship's physician
must be present and available to treat passengers or must be
on-call for immediate response to the event of the emergency
situation.
    Doctors must have United States medical board credentials
in emergency medicine, internal medicine, or family medicine,
and have at least served a practicum.
    Carnival, through CLIA, has agreed to adopt standards that
demand these basic requirements and more. However, Carnival has
ignored virtually all of the standards that they agreed to
implement on their ships as a member of CLIA. This must change
for the safety and welfare of future passengers.
    My father and I greatly appreciate the opportunity to tell
my mother's story, our experiences, and our recommendations
before this committee. Thank you.
    [The prepared statement of Ms. Butler follows:]

                  Prepared Statement of Amanda Butler

                       ``Violet Butler's Story''

       Respectfully submitted by Amanda and Ermon (Butch) Butler

    We set sail on a family and friends reunion out of New Orleans, LA
on April 14 after taking a charter bus from Columbus, MS. We boarded
the cruise ship and had a great time with our family and friends until
the 18th of April. Up until this point Violet Butler stood out as the
ring leader and entertainer for our group. There were no signs or
symptoms of any possible underlying medical issue. She was very active
and playful for the first four days. On April 18, our family went
ashore at George Town, Grand Cayman for a short excursion to the Seven
Mile Beach. We had an amazing day with our relatives. We grabbed a
quick burger and began to re-board the shuttle boat back to the cruise
ship. When we arrived at the ship, we stopped before boarding to snap a
couple of photos while we could capture the entire length of the boat.
Once inside the ship, we walked straight through security with several
other passengers. She was discussing what we were wearing to dinner
that night for family pictures. Violet reached over to collect her
beach bag. After doing so, she took three to four steps forward and
collapsed in mid-sentence.
    I ran for help immediately upon her collapse and after seeing that
she was not breathing nor had a pulse. I pleaded with the security team
members in the security area to help us, but they appeared to be unable
to speak English. They had a radio but did not make any effort to
assist or approach Violet. Instead, they focused on barricading the
door and hallways so that people could not see what was happening. I
ran down corridors desperately trying to find any medical personnel or
someone to help me communicate the urgency of the situation to the
guards. My father was kneeling by her body trying to get her to regain
consciousness. Violet's bathing suit cover was slipping off at this
time, so he was also trying to keep her modestly covered as several
minutes had passed.
    After what seemed to be an eternity but was probably 12 to 15
minutes after she collapsed, help did arrive. One lady got there before
the rest of the medical team and checked Violet's vitals but did not
initiate CPR. She had a radio but no medical equipment. When the rest
of the medical team arrived, Violet was loaded on a gurney and taken to
their medical facility.
    The medical facility was around the corner and less than a hundred
feet away from where she fell. The office, however, was closed and had
to be unlocked and opened. Dad and I waited with Violet's body while
the lights and computers were turned on. There was an AED locked away
in a closet that was brought out and plugged in. After what seemed to
be another 3 or 4 minutes, Violet was taken into the examination room
of the facility. I was asked to come into the examination room with her
to remove her jewelry and, to my surprise, start an IV in her leg. My
father was detained in an outer office to sign ``important papers'',
which he was never given. They gave him his sign and sail account
paperwork, not medical consent documents. The medical team began the
process of shocking her heart followed by 2 minutes of CPR. They had to
repeat this protocol four times before her heart began to beat on its
own. By now we were approaching 30 minutes since she collapsed. About
this time, the ship's doctor returned from shore excursion and had to
be briefed on what happened. He inquired whether she was stable enough
for transport off the ship and into an ambulance. He was told that she
was.
    My dad and I were told we had to leave the ship. Dad was instructed
to go pack everything and get out of their room. I was still with
Violet at this point but my father was not allowed to see her.
Personnel were sent with my father to assist in the packing process.
Carnival personnel were sent to my cabin as well. My roommate, Debbie
Williams, saw the ship's personnel trying to open our cabin door. I
eventually ran up to help pack with Debbie while my mother's body was
being ``prepped to ship.'' Debbie immediately sent me back down to be
with mom while she packed for me. Dad and I met again in the medical
facility to accompany my mother's body to leave the ship.
    We boarded the shuttle, and Violet's body was placed on a box
containing life vests and equipment. She was not properly strapped
down. When we arrived at the dock, we learned that the ambulance crew
had grown tired of waiting for us and left. We waited on the dock for
another ambulance to come. During that time, we were standing in the
hot sun with Violet on a transportable stretcher. She lay fully exposed
to the glare and heat of the sun and had not been iced or cooled in any
way. Since leaving the ship, we were also taking turns with a manual
ventilation pump to make sure that she was still breathing since that
seemed to be sporadic. We can only recall one member of the medical
team coming with us. She helped taking turns with the manual
ventilation pump and did nothing else. The crew onboard the ship
appeared to be far too concerned with making sure that our suitcases
were on the ambulance instead of sending qualified personnel to take
care of my mother.
    When we arrived at customs, we learned that the cruise line had
done nothing to expedite processing as a medical emergency. We all,
including my comatose mother, had to clear customs as if we were
tourists and declare that we would not seek work or stay more than
thirty days. We had to show Violet's passport and U.S. driver's license
for her to clear customs in an unconscious state. The female from
Carnival followed us in while our luggage was being placed in family
waiting lounge. The lady gave dad a number to the port authority and
the U.S. Embassy. Then she left immediately after that and before my
mother was even checked in the hospital.
    When we finally arrived at the hospital on St. George, Dad and I
took a quick nap but remained with Violet for the duration. Dad spent
quite a bit of time on the phone to find an air ambulance company and
arrange the medical airlift into the U.S. At the same time, he was
working to make the financial arrangements to pay the hospital bill in
cash in order for the hospital to release my mother and also to pre-pay
the aeromedical transport. I remained with her at all times.
    When the National Air Ambulance arrived, Violet and I were loaded
into an ambulance and taken to customs again before being allowed to
board the jet. She was still unconscious but had to be cleared through
customs like an ordinary tourist before we could load her onto the
airplane. I also had to be cleared. I did not have my passport but had
my birth certificate, social security number, and driver's License. We
waited in a holding area until my passport was found in the system and
then were allowed to board the airplane and take off.
    We took off at approximately 5:30 p.m. with a destination of Miami
International Airport. We were separated from Dad and no idea if he was
being successful in arranging air transportation to Miami for himself.
Port authority representatives transported dad to the airport on St.
George and left him completely alone with no means of communication
with me. Until he arrived at the hospital in Miami, dad had no way of
checking on Violets status or knowing what was happening. He also did
not know where the hospital in Miami was located. Someone at the St.
George hospital gave him a slip of paper that simply read ``Jackson
Memorial Hospital'', and that was all he had to go on.
    The aeromedical transport physicians' narrative notes provided a
brief overview of Violet's status upon receiving her body from the
Georgetown Hospital. The notes specifically stated that Violets skin
was ``warm and dry'' indicating she was not kept cool between 30-35
degrees Celsius as she should have been. Violet survived the flight,
and we were transferred by ground ambulance arriving at the Cardiac
Care Unit of Jackson Memorial around 8:00 p.m.
    Dad's plane landed around the same time that we were moving Violet
into CCU. The cardiology and neurological teams went to work right away
performing their respective examinations and doing everything possible
to save her. Because of medications administered by the hospital on St.
George, we had to wait twenty-four hours after arriving before
performing any diagnostic tests. We kept Violet on life support,
running every possible test for eight days. On the eighth day, we were
told by the Neurology team that she would never recover nor would she
have any quality of live. She would never open her eyes, speak, or move
again. Based on this information, we made the decision to remove Violet
from life support. She spent her final days in palliative care with my
father and me always at her bedside. We watched and prayed for days
that she would open her eyes, but she never did. Violet Butler died
with us at her side at 10:44 PM on the 4th day of May. Her death was
unnecessary and never would have happened if she had received effective
treatment within the first few minutes of her collapse. Even though
several security personnel were in the immediate area at that moment,
we estimate it was about 15 minutes before help arrived and several
more minutes before lifesaving treatment was started. By then it was
too late.
    Since this event happened, we have learned many things about
Carnival and also what happened to my mother. Our understanding of the
medical records and autopsy report indicated that she had the type of
cardiac event such that if she had received CPR within the first few
minutes after collapsing, there would have been a reasonable
probability that she could have been completely restored with no ill
effects. The medical team was very slow to respond and begin life-
saving measures. By the time they did start their efforts, significant
brain damage due to lack of oxygen would have occurred. We also learned
that because she wasn't iced down to cool her body and her head, the
exposure to the glaring sun and heat during transport, while we waited
on the dock, and while clearing customs may have accelerated further
brain damage than would have occurred if she had been cooled. We also
took note that we were essentially abandoned by Carnival once we were
off the ship. Not discounting the fact that they sent someone from the
ship with us, that individual did nothing to help and seemed to be
there more to make sure that we were away than to provide any
assistance. She did take her turn with my dad and me in pumping the
ventilation bag to keep my mother breathing, and she gave my father the
telephone numbers to the U.S. Embassy and Port Authority. But she did
nothing else to assist and quickly left us.
    At face-value, Carnival has promoted itself as caring about its
passengers and ensuring their well-being through its membership in the
Cruise Line Industry Association (CLIA). In 2009 CLIA began a campaign
on behalf of the member cruise line companies, including Carnival, that
the passenger's welfare is of utmost importance, particularly in the
area of medical care with the following announcement: ``As a result of
cooperative efforts between experienced cruise ship physicians and
ACEP, CLIA cruise lines traveling regularly on itineraries beyond the
territorial waters of the coastal state, have agreed to meet or exceed
the requirements of the ACEP Health Care Guidelines on Cruise Ship
Medical Facilities as revised February 2013.'' ACEP is the acronym for
the American College of Emergency Physicians. These standards are very
detailed and specify the number of examination rooms per 1,000
passengers a cruise ship must have, recommendations regarding
physicians and nurses, the availability of medical care 24 hours a day,
a list of equipment and pharmaceuticals that must be maintained onboard
a cruise ship, and protocols for emergency including a rapid response
team that must be drilled monthly. The list of equipment includes an
EKG machine and oxygen, neither of which made an appearance in the care
of my mother. The medication requirements include sufficient quantities
of cardiovascular and advanced life support medications for the
management of cardiopulmonary arrests. The list goes on and can be
found at http://www.acep.org/
content.aspx?LinkIdentifier=id&id=29980&fid=2184&Mo=No.
    However, the most recent passenger contract with Carnival states
that ``The Guest admits a full understanding of the character of the
Vessel and assumes all risks incident to travel and transportation and
handling of Guests and cargo. While at sea or in port the availability
of medical care may be limited or delayed. Guest acknowledges that all
or part of their voyage may be in areas where medical care and
evacuation may not be available.'' The contract continues on to state
that Carnival regards its physicians and nurses to be independent
contractors for whom Carnival holds no liability: ``All rights,
exemptions from liability, defenses and immunities of Carnival under
this contract shall also inure to the benefit of Carnival's facilities,
whether at sea or ashore, servants, agents, managers, affiliated or
related companies, suppliers, shipbuilders and manufacturers of
component parts and independent contractors, including, but not limited
to, shore excursion or tour operators, ship's physician, ship's nurse,
retail shop personnel, health and beauty staff, fitness staff, video
diary staff, and other concessionaires, who shall have no liability to
the Guest, either in contract or in tort, which is greater than or
different from that of Carnival.'' And, lastly, Carnival states again
that it has no responsibility regarding the actions of the physicians
or nurses: ``Guest acknowledges that all Shore excursions/tours
(whether conducted in the water, on land or by air), airline flights
and ground transportation, as well as the ship's physician, and onboard
concessions (including but not limited to, the gift shops, spa, beauty
salon, fitness center, golf and art programs, video/snorkel concession)
are either operated by or are independent contractors. Even though
Carnival shall be entitled to collect a fee and earn a profit from the
ticketing or sale of such services by such persons or entities,
Carnival neither supervises nor controls their actions, nor makes any
representation either express or implied as to their suitability.
Carnival, in arranging for the services called for by the physician or
nurse, all onboard concessions, all shore excursion/tour tickets, all
pre and post cruise airline flights or other transportation off of the
ship and its tenders, does so only as a convenience for the Guest and
Guests are free to use or not use these services. Guest agrees that
Carnival assumes no responsibility, does not guarantee performance and
in no event shall be liable for any negligent or intentional acts or
omissions, loss, damage, injury or delay to Guest and/or Guest's
baggage, property or effects in connection with said services. Guests
use the services of all independent contractors at the Guest's sole
risk. Independent contractors are entitled to make a proper charge for
any service performed with respect to a Guest.'' (Source: http://
www.carnival.com/about-carnival/legal-notice/ticket-contract.aspx)
    One month after Violet's collapse, Carnival, with the other CLIA
members, adopted the Cruise Ship Passenger Bill of Rights which
includes a statement on emergency medical care: ``The right to have
available onboard ships operating beyond rivers or coastal waters full-
time, professional emergency medical attention, as needed until shore
side medical care becomes available.'' (Source: http://www
.cruising.org/news/press_releases/2013/05/cruise-industry-adopts-
passenger-bill-rights)
    The Cruise Vessel Victims Safety and Security Act of 2010 requires
the constant availability of medical care and specifies the
credentialing of physicians and nurses.
    It appears that what Carnival is professing on the one hand does
not match with what Carnival does on the other hand. The company has
ignored all of the guidelines and standards that it implied were
adopted through the CLIA declarations. It also ignored the requirements
of the 2010 act. The response time to my mother was not ``rapid'' nor
was it handled as an emergency should be handled. No one from the
ship's crew stepped forward to assist other than possibly calling a
medical responder who did nothing when she arrived. The bottom line is
that Carnival was not prepared to handle a medical emergency. As a
result of lack of preparedness, my mother died unnecessarily when, as
we learned later, she possibly could have been restored to good health
if help had arrived and she had been treated as a true emergency. No
other family should experience what we have gone through this past
year. This must change.
    We have attached below a list of recommendations to improve the
availability and quality of medical care on cruise vessels based on our
experiences, our observations, and what we have learned since my
mother's event on April 18, 2013.
            Respectfully,
                                    Amanda and Butch Butler

    Having lost my mother and my father losing his wife, we are both
dedicated to making a change in how the cruise ship industry functions.
There are very easy steps that can be incorporated into law that will
save hundreds of lives each year. My father and I would like to see
several changes including:

        AED Machines should be placed throughout each ship with
        locations clearly designated and discussed during the initial
        safety meeting. We would like to see these ships be as equipped
        for emergencies as airports and planes.

        CPR (Basic Life Support) training and certification should be a
        requirement for all personnel that work on cruise liners. This
        requirement is based on the general age of many individuals who
        vacation aboard cruise ships. In addition, ship's personnel
        must be trained on how to respond to medical urgent or emergent
        situations including alerting and summoning medical personnel,
        initial response to aid the passenger and family, and providing
        manual assistance, as required, to medical personnel.

        The English language should be a requirement of all ship's
        personnel on the vessels that have United States ports of call.
        At a minimum, all personnel should be required to understand
        key words such as, emergency, help, doctor, etc.

        Twenty four hour health care is necessary given that these
        ships carry several thousand people per cruise. In Violet's
        case, her life would have been saved had the medical facility
        been staffed and ready for immediate response.

        Ships' Doctors must have United States medical board
        credentials in emergency medicine or internal medicine and have
        served a practicum before being allowed to care for the lives
        of thousands of United States citizens on each cruise. A
        physician must be present or on call for immediate response at
        all times.

        Enhancing the Safety Briefing to include the location of the
        medical facilities, and steps to take during an medical event
        if it should be necessary. Also mandatory in the safety
        briefing are the following: The location and use of AED
        machines; How to report an incident and/or reach out for
        police/security assistance in the event of a medical emergency.
        In the current circumstance, security officers who were present
        on that date offered no assistance other than blocking fellow
        passengers from seeing that someone had collapsed on the floor.

        For the cruise lines that accept children as cruise passengers,
        pediatric care must be readily available. The rationale for
        this requirement focuses on the observation that children are
        not miniature adults when receiving medical treatment. Many
        infirmities are unique to children and require treatment quite
        distinct from that given to adults. And infirmities that are
        common to both adults and children are often treated
        differently for children than for adults. The American College
        of Emergency Physicians recommends that at least one physician
        be trained in pediatric advanced life support. Other
        infirmities or traumas could be managed via Telehealth
        consultations with a U.S. based pediatric medical facility.

    The Chairman. No, thank you very much, Ms. Butler.
    Just for the benefit of the members of the Committee, what
Amanda Butler has been talking about in part is, I would have
to lose 60 years off my present life length and have triple-
strong glasses and probably a magnifying glass to be able to
read what you're talking about.
    Ms. Butler. Yes.
    The Chairman. This is--I gave it to Bill Nelson. He's
getting older, too. You give up your----
    Ms. Butler. You give up your rights.
    The Chairman.--your liability, and you have no idea that
you're doing that. One, because you can't read this thing.
    I'm breaking protocol here and I apologize. But you give
things up. You don't know what. You can't possibly read this.
When you're buying a ticket, you're kind of in a hurry. That's
the whole point. And in this is your whole trip, so to speak.
It's just deceitful to me, easy to correct, and unnecessary.
    Ms. Butler. If you don't mind, could I make one more
statement, Senator?
    The Chairman. Yes.
    Ms. Butler. Carnival is suing my father and myself over
$1,200, literally, for the lack of medical care that we
received after they dumped us off on an island completely
alone. You do give up all of your rights. My mother was left in
the hot tropical sun and she did not have a chance because of
the way that they treated her medically.
    The Chairman. I thank you, and I apologize to my colleagues
for interrupting protocol.
    Kim Ware was a passenger on the Carnival Triumph that
caught fire in 2013 and was stranded for 4 days, which I really
want to hear about. I don't know how one gets stranded for 4
days on a cruise ship.

                 STATEMENT OF KIMBERLY A. WARE

    Ms. Ware. Chairman Rockefeller, Committee members: My name
is Kim Ware. I am from Houston, Texas. I am the mother of five
children and three grandchildren. My family and I have cruised
many times. We love cruising and I naively had never given a
thought to the possible dangers onboard a cruise ship.
    Being weary of the cold, in February 2013 my boyfriend Ed
and I booked a last minute cruise on the Carnival Triumph to
enjoy some sun in Mexico. For the first 2 days of the trip,
everything went as planned. As we went to bed on the second
day, we had no idea of what was to come. The passengers of the
Carnival Triumph would be adrift at sea for 4 days, living in
horrendous conditions.
    In the early morning hours of our third day at sea, we were
awakened by an emergency announcement that sounded ominous. Ed
quickly jumped up and went onto our balcony, where he saw a
great amount of smoke coming from the back of the ship. We
immediately knew it was a fire. Fear overcame me immediately,
as during our muster drill the crew had repeated over and over
that fire was our gravest danger while at sea.
    Shortly thereafter, the cruise director informed us that
there was a situation in the engine room. There was confusion
among the passengers as to whether to go to the muster stations
or not. Several hours later, our worst fears were confirmed.
There had been a fire. It was out, but we were dead in the
water--no power.
    Eventually, the giant ship began to list and, as you can
imagine, this caused a great deal of fear among the passengers
that the ship was going to capsize. It was soon very clear that
Carnival Cruise Lines had no plan in place for such a disaster.
They were essentially winging it.
    Conditions aboard the ship began to deteriorate quickly.
There was no electricity. We had water intermittently. We were
informed that the sewage system no longer operated. All
passengers were given red bio bags to use instead of the
toilets. As passengers understandably did not want to use the
bags, all public toilets onboard the ship were quickly filled
to the top with human waste. The sewer system quickly backed up
and came out of the shower drains, and later red bio bags lined
the hall filled with feces. The stench was terrible and
sanitation aboard the ship was nonexistent.
    I was one of the very fortunate passengers who had a
balcony cabin. The unlucky passengers who had booked inside
cabins had no access to fresh air or sunlight. These passengers
were forced to move their families to mattresses in the
hallways on upper decks or onto the lounge chairs on the pool
deck, where sheets were quickly raised as protection from the
sun. A tent city was born.
    These passengers suffered the worst hardships. It was very
disconcerting to see the elderly and young children in these
circumstances. I couldn't help but wonder if the elderly had
enough medicine with them, had the parents of the babies packed
enough diapers.
    The crew was doing its best to provide us with meals.
However, passengers waited hours in line for food. Hoarding
food became a problem as people were concerned that food would
run out. I witnessed many heated arguments among passengers
over food hoarding.
    The buffet no longer looked clean. People who had not
bathed in days were handling serving utensils and food. With
the unsanitary conditions of the food service and the sewage
problem, it is a miracle that a massive viral outbreak did not
occur.
    I was constantly in fear of becoming sick in these
conditions. We tried to stay out of the public areas as much as
possible.
    In truth, the entire ship had quickly become a refugee
camp. I was very concerned that violence was going to erupt as
passengers struggled with these living conditions. There seemed
to be no security at all. At night, the ship became very dark
and I never saw any type of security patrolling the ship.
    As time slowly dragged on, the plans to get us back to
shore kept changing. First we would go to Progresso and be
flown out. Then the plan was for tugs to take us back to
Houston. The final decision was that tugs would pull us into
Mobile, Alabama. This decision was made with no thought to the
passengers onboard. Going to Mobile caused the passengers to
endure the miserable conditions aboard the Triumph for an extra
24 hours.
    With no way to communicate with my family and days adrift
at sea, I felt as though the cruise would never end. I finally
broke down and cried.
    Upon return home, the only communication I received from
Carnival was a letter with a $500 check and a refund voucher
toward a future cruise. This seemed to me inadequate for the
danger I was put in aboard the Triumph.
    After being home a while, I realized that I had put my
trust in the cruise industry with no knowledge of what would
happen in the event of a real emergency situation. I now know
that Carnival sent the Triumph out with only four of the six
generators working and with knowledge of a potential fire
hazard in the fuel lines. I wish I had known these things prior
to setting sail.
    I feel that the cruise ship industry has a duty to provide
not only a great vacation for passengers, but to ensure their
safety at all cost and to impart the utmost care when an
emergency arises. Information should be made public of problems
occurring on cruise ships so that future passengers can make
educated decisions on which lines to travel.
    Further, passengers should have the right to pursue
compensation for any wrongdoing on the cruise industry's part.
    Cruising is a wonderful way for families to vacation
together. However, cruising needs to be made safer for all U.S.
citizens. My hope is that Congress will pass legislation to
ensure that the cruise industry abides by strict standards for
passenger safety so that a future disaster of even greater
magnitude aboard a cruise ship can be avoided.
    Thank you for your time.
    [The prepared statement of Ms. Ware follows:]

                 Prepared Statement of Kimberly A. Ware
    My name is Kim Ware. I am from Houston, Texas. I am the mother of
five children and have three grandchildren. For the last six years, I
have worked as a Health Care Recruiter.
    My family and I have cruised many times. We love cruising and I,
naively, had never given a thought to the possible dangers onboard a
cruise ship.
    Being weary of the cold in February of 2013, my fiance and I booked
a last minute cruise on the Carnival Triumph to enjoy some sun in
Mexico. For the first two days of the trip everything went as planned.
As we went to bed on the second day, we had no idea of what was to
come. The passengers of the Carnival Triumph would be adrift at sea for
four days living in horrendous conditions.
    In the early morning hours of our third day at sea, we were
awakened by an emergency announcement that sounded ominous. My fiance
quickly jumped up and went onto our balcony where he saw a great amount
of smoke coming from the back of the ship. We immediately knew it was a
fire.
    Fear overcame me immediately, as during our muster drill the crew
had repeated over and over that fire was the gravest danger while at
sea.
    Shortly thereafter, the cruise director informed us that there was
a ``situation'' in the engine room.
    There was confusion among the passengers as to whether to go to the
muster stations or not.
    Several hours later our worst fears were confirmed. There had been
a fire. It was out, but we were dead in the water. No power.
    Eventually, the giant ship began to list. As you can imagine, this
caused a great deal of fear among the passengers that the ship was
going to capsize.
    It was soon very clear that Carnival Cruise Lines had no plan in
place for such a disaster. They were essentially winging it.
    Conditions aboard the ship began to decay quickly. There was no
electricity. We had water intermittently. We were informed that the
sewage system no longer operated. All passengers were given red bio
bags to use instead of the toilets. As passengers understandably did
not want to use the bags, all public toilets onboard the ship were
quickly filled to the top with human waste. The sewer system quickly
backed up and came out of the shower drains. And later, red bio bags
lined the halls filled with feces. The stench was terrible and
sanitation aboard the ship was nonexistent.
    I was one of the very fortunate passengers who had a balcony cabin.
The unlucky passengers who had booked inside cabins had no access to
fresh air or sunlight. These passengers were forced to move their
families to mattresses in the hallways on upper decks, or onto the
lounge chairs on the pool deck where sheets were quickly raised as
protection from the sun. A tent city was born. These passengers
suffered the worst hardships. It was very disconcerting to see the
elderly and young children in these circumstances. I couldn't help but
wonder if the elderly had enough medicine with them. Had the parents of
the babies packed enough diapers?
    The crew was doing its best to provide us with meals, however,
passengers waited hours in line for food. Hoarding food a became a
problem as people were concerned that food would run out. I witnessed
many heated arguments among passengers over food hoarding. The buffet
did not look clean and people who had not bathed in days were handling
serving utensils and food.
    With the unsanitary conditions of the food service and the sewage
problem, it is a miracle that a massive viral outbreak did not occur. I
was constantly in fear of becoming sick in these conditions. We tried
to stay out of the public areas as much as possible.
    In truth, the entire ship had quickly become a refugee camp. I was
very concerned that violence was going to erupt as passengers struggled
with the living conditions. There seemed to be no security at all. At
night, the ship became very, very dark and I never saw any type of
security patrolling the ship.
    As time slowly dragged on, the plans to get us back to shore kept
changing. First, we would go to Progresso and be flown out. Then, the
plan was for tugs to take us back to Houston. The final decision was
that tugs would pull us into Mobile, Alabama. This decision was made
with no thought to the passengers onboard. Going to Mobile caused the
passengers to endure the miserable conditions aboard the Triumph for an
extra 24 hours. With no way to communicate with my family and days
adrift at sea, I felt as though the cruise would never end. I finally
broke down and cried.
    Upon return home, the only communication I received from Carnival
was a letter with a $500.00 check and a refund voucher towards a future
cruise. This seemed to me inadequate for the danger I was put in aboard
the Triumph.
    After being home awhile, I realized that I had put my trust in the
cruise industry with no knowledge of what would happen in the event of
a real emergency situation. I now know that Carnival sent the Triumph
out with only four of the six generators working and with knowledge of
a potential fire hazard in the fuel lines. I wish I had known these
things prior to setting sail.
    I feel that the cruise ship industry has a duty to provide not only
a great vacation for passengers, but to insure their safety at all
costs and to impart the utmost in care when an emergency occurs.
Information should be made public of problems occurring on cruise ships
so that future passengers can make educated decisions on which lines to
travel. Further, passengers should have the right to pursue
compensation for any wrong doing on the cruise industry's part.
    Cruising is a wonderful way for families to vacation together.
However, cruising needs to be made safer for all U.S. citizens. My hope
is that Congress will pass legislation to insure that the cruise
industry abides by strict standards for passenger safety so that a
future disaster of even greater magnitude aboard a cruise ship can be
avoided.
    Thank you for your time.

    The Chairman. Thank you very much, Ms. Ware.
    I'm going to start the questioning, to be followed by
Senator Wicker, Senator Nelson if he comes back, and Senator
Begich and Senator Blumenthal, who is a 29 year Attorney
General of the State of Connecticut and one of the most astute
questioners I have ever listened to. But you're last, so be
patient and stick around.
    Last year--this is going to be a question for you, Ms.
Butler. Last year the major cruise lines adopted what they call
a Passenger Bill of Rights. Now, we've done that in the airline
industry and we pretty much enforce it. One of those so-called
rights is that passengers have the right to, quote, ``full-time
professional emergency medical attention as needed until
shoreside medical care becomes available.'' That's their
language, not mine.
    A few weeks ago, senior representatives from the Cruise
Line International Association, which I affectionately refer to
as ``CLIA,'' told my staff that cruise lines have a duty to
provide passengers competent medical care.
    My question to you is, would you say that the medical care
provided to your mother--in the first iteration, it was ``full-
time professional emergency medical attention as needed until
shore medical care became available,'' and then all of a sudden
it became ``competent medical care.'' So my question to you is:
Was the medical care provided to your mother competent?
    Ms. Butler. No. They did everything wrong. We were
expecting that one of the security guards would step forward to
initiate CPR. Instead, they waited at least ten minutes to even
call for someone to come down and look at my mother's body to
see if she was breathing or not. In that case, she was not
breathing. She did not have a pulse.
    To top it off, the infirmary was closed. So we had to wait
literally for them to turn everything on. They had to unlock
the defibrillator, the AED, out of a closet and then plug it
into the wall. They had to set up their own hospital while we
were standing there waiting and my mom's not breathing. It was
horrific and completely unacceptable for an American citizen.
    The Chairman. Now, in your mother's case, Carnival claims
that it has and had no duty to provide medical care, no duty to
train or supervise medical staff, and no duty to make the sick
bay available. Further, they claim no duty to provide medical
equipment, like basic automatic external defibrillator
machines.
    So, Ms. Butler, when you bought your ticket for the cruise
did you understand that if you accepted medical care provided
by the cruise line you would be doing so at your own risk, at
your own cost, and that the cruise line would deny liability
for the quality of the care?
    Ms. Butler. We had no idea. We couldn't read the font. It
was tiny. You have to click a link and click ``Yes, I Agree''
to even be able to print off your ticket. But you can't see
what they're trying to hide. And the average lay person--we're
a humble family from Mississippi. We didn't own--we don't own a
magnifying glass and we weren't going to print it off and then
try to figure out what their legal jargon or lack thereof was
hidden in the contract.
    The Chairman. Plus you assume a certain level of
responsibility, right?
    Ms. Butler. Yes, yes.
    The Chairman. Do you all have, Senator Begich, Senator
Blumenthal, do you have this in your folder? I would just like
to have it passed to each of you. I've circled the word
``liability,'' but it's unbelievable. I can't read any of it.
    Ms. Butler. Neither could we.
    The Chairman. At the beginning of a voyage, the cruise
lines provide safety--and this is to anybody--provide safety
information at a, quote, ``muster drill'' to help passengers
prepare for an emergency like a fire or a wreck. This
information helps passengers prepare and know what to do in the
event of an emergency.
    My question is for the panel. Many of you experienced
emergency situations that you were unprepared for. Did the
cruise lines provide any information on what to do in the event
of criminal or medical emergency? I'm asking any of you.
    Ms. Dishman. Senator, no. In my situation, no, the cruise
line did not.
    Ms. Butler. In our situation as well, Senator, no. And it
would be very simple to just add: Oh, by the way, our medical
infirmary is on yadda-yadda floor. We had no idea where to go.
    The Chairman. The obvious question: would have--if you had
had this information, that might have helped, right?
    Ms. Butler. If we had the information we could have saved
her life. Someone should have given her CPR.
    The Chairman. OK. Well, I've got more questions, but my
time is up for my first round. So I go to Senator Begich.

                STATEMENT OF HON. MARK BEGICH,
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman.
    I appreciate the opportunity to have you all here today and
thank you for sharing your story. Let me ask you--and I think,
Ms. Butler, you gave some suggestions, if I remember the lineup
here and my writing here. You had suggested AED machines should
be more visible or available, I think. I'm not sure if that's
the right word, but tell me what you mean by that?
    Ms. Butler. We've been told that Carnival does have
defibrillators, AEDs, but they keep them locked up because
they're afraid that the passengers may steal them.
    Senator Begich. And your comment about CPR training to make
sure that employees--all employees or employees related to
security? Help me understand what you were thinking there, too?
    Ms. Butler. At the very least, security when people are
coming back onboard from excursions.
    Senator Begich. There is part of the proposal that the
Chairman has is to make sure that there's information available
to potential passengers or customers. Let me ask you a
question. When you were researching your desire--was this your
first cruise or second or----
    Ms. Butler. We've been doing this for years.
    Senator Begich. OK, so you're a cruiser.
    Ms. Butler. Used to be.
    Senator Begich. In Alaska, we have a lot of cruise ships,
so I understand.
    So when you go look for a cruise, just tell me how you go
about that when you want to go?
    Ms. Butler. I'll be honest. I have a cousin that organizes
our family reunions, so she picks it out and we all basically
chip in for all the tickets.
    Senator Begich. Do you--well, maybe I may not be able to
ask you. Maybe I can ask one of the other two this question.
I'm trying to find out, when you go on line--I have not done a
cruise. I am very familiar with cruises, let me make that very
clear, with over a million passengers coming to Alaska every
year, from everything from small cruises to the big Disney
cruises, Carnival, Princess, and so forth. I've been on many of
the ships, but have not done a full-scale cruise.
    When you go online to look up what you want to do, do you--
in your mind are you looking for not only what your location
is, what you're interested in, but do you decide, jeez, I want
to know how safe this cruise is? Does that come across? Is that
one of the thoughts that you have?
    Ms. Butler. You assume that if you're leaving out of a U.S.
port that you have U.S. health care and safety, period. It was
just an assumption.
    Senator Begich. Here's where I'm trying to go, and anyone
can answer this. And I appreciate the Chairman's piece of
legislation, but in it it talks about putting a lot of
information on the Department of Transportation website. My
guess is that is not a place you would go to if you were going
to look up a cruise and think about the safety of a cruise.
    Do you see where I'm going?
    Ms. Butler. Yes.
    Senator Begich. In other words, if you're going onto a
cruise site and you're thinking, I want to go on a cruise to
the Mediterranean, I wonder how safe this cruise is, let's say
that is your question. Would your first instinct say go to
DOT's website?
    Ms. Ware. No.
    Senator Begich. Where would that be?
    Ms. Ware. I think all of us would go to Travelocity,
Expedia, Cruise.com, something like that. But I think the
assumption is there, just like with air travel, that--I thought
regulations were in place. A corporation as large as Carnival,
with a reputation to uphold, I just assumed that they would
have great safety measures in place on ships of that size. I
was naive.
    Senator Begich. No, I understand that. I'm just trying to
figure out--what I'm worried about--and I've told the Chairman
this--adding another layer of information, but then the
customer has no idea where that information is.
    Ms. Ware. Maybe they could put something on Expedia saying
go to this site.
    Senator Begich. I'm just trying to figure out what is the
better--go ahead. I'm sorry.
    Ms. Dishman. Well, definitely every cruise line needs to
have an updated reporting on their website. In regards to the
transportation, to me that would fall along with airline or
train or if I was a consumer looking for something that
involved all different types of transportation and incidents
that occurred. But the regular consumer may go to that Royal
Caribbean or Carnival website or even a travel website.
    But you should be able to know what type of crimes occur
aboard ships when you're planning your family vacation. I mean,
the television commercials give you this false sense of let
your kids go and have fun and do what you want to do while
you're on the cruise. And I feel that the different crimes and
things that happen need to be reported, and I feel all of them
need to be reported, not just if they're opened and never
closed. I believe they all need to be reported.
    Senator Begich. Do you think that should be the case for
all types of transportation?
    Ms. Dishman. I don't know. For a family--after what you've
learned, what I didn't know, because I had the false sense when
I left out of San Pedro-Los Angeles I thought I was taking all
my rights with me and didn't know that it was flown under a
Liberian flag and that they were the ones that the law was
under.
    Senator Begich. Very good. Thank you very much.
    The Chairman. Thank you, Senator Begich.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, and thank you
for championing this bill, which I am very, very proud to co-
sponsor. Thank you for having this hearing, which gives us an
opportunity to really not only express our support and
sympathy, but also to make you a part of the crusade for this
legislation, which will really in a sense make something good
come of your horrific experiences.
    I have a family who is a constituent family in Greenwich
who suffered very tragically a loss that in some ways is
reminiscent of yours, a loss that still is with them. George
Smith IV vanished, literally disappeared, sometime overnight
going into July 4 of nine years ago. He remains missing since
2005. There was blood on the ship when it went into a harbor.
The crime scene was never secured, let alone adequately
investigated. His death remains a mystery today, much to the
understandable consternation of his family.
    His death is with us still in Connecticut. It is a grievous
reminder that the rights of people who suffer as victims of
crime while at sea are completely inadequately protected, as,
Ms. Dishman, you have reminded us so dramatically and
graphically.
    That's the reason that these kinds of limitations on
liability make a mockery of the implicit promises that are made
to passengers on cruise ships that they will be kept safe.
That's the minimal obligation that a cruise ship has to its
passengers, to keep them safe. It can't guarantee that they
will be happy, that they will always be celebratory, that the
weather will always be good. But to keep them safe is a minimal
obligation.
    In each one of your instances and examples, the cruise ship
failed in that basic obligation and passengers were left
without remedy, and without hope of real recovery. And in your
instance, Ms. Butler, what happened to your mother may well
have been avoidable and unnecessary in its ultimate
consequence. You have my special sympathy in that regard.
    So we are really trying to impose minimal protection on
cruise ships, and that's the purpose of the Cruise Passenger
Protection Act. It imposes standards of decency, standards of
minimal, basic decency and fair dealing on cruise ship lines.
    I'd like to ask you, Ms. Butler, whether you have taken any
legal action. I note in your testimony that you consulted with
an attorney and he advised you as to where you had to file suit
and some of the basics of the law in this area, and I wonder
whether you've taken any legal action?
    Ms. Butler. Yes, we have. John Arthur Eaves and Frank
Spagnoletti have picked up our case.
    Senator Blumenthal. And has he indicated to you that there
are obstacles because of the way the law is now structured?
    Ms. Butler. Death on the high seas, it's--literally, it's
David versus Goliath and we're David.
    Senator Blumenthal. So passengers like yourself are not
only on an island, as the chairman indicated, passengers are
not only on an island in the high seas, but it's a lawless
island.
    Ms. Butler. Exactly.
    Senator Blumenthal. Ms. Dishman, if I may ask you, have you
taken any legal action?
    Ms. Dishman. Yes, I did.
    Senator Blumenthal. Has your lawyer advised you as to
obstacles that are in your way because of the inadequacy of the
law?
    Ms. Dishman. Yes, and I experienced several different
challenges and things that occurred in regards to my case.
    Senator Blumenthal. Ms. Ware and Mr. Gerson, let me ask you
the same question. I know you are an attorney, so let me ask
you whether you've taken legal action on behalf of your client?
    Mr. Gerson. Indeed, I did, and my client's case was
settled, for a handsome sum, I must say, just recently. And I
would comment on Ms. Butler's situation, that I litigated a
very similar case for 7 years involving the anoxic brain injury
to a 26-year-old third year medical resident from Ohio who
collapsed on a treadmill onboard the ship in the presence of
the fitness center director, who took no steps at all to
resuscitate her, and there was a factual dispute over the
length of time she was down without any defibrillation.
    There are international treaties that require crew members
to be trained in CPR, and the position that the cruise lines
take is that the training is only advisory; they're not
required to use it and it's discretionary as to whether or not
they want to use it, and Federal maritime law is that they're
not legally responsible if they don't use it. And they didn't
use it in this case, and this young woman, who had a brilliant
career ahead of her, essentially lives the life of a vegetable
today, with no recovery.
    Senator Blumenthal. Thank you.
    Ms. Ware?
    Ms. Ware. Yes, I have taken legal action, and I did not
know that by signing that ticket I was giving up all my rights
according to Carnival for compensation.
    Senator Blumenthal. Mr. Chairman, again my thanks for
having this hearing. I'm going to ask that a letter from my
Connecticut colleague Congressman Jim Himes be entered into the
record in support of this legislation, and that concludes my
questioning.
    I'm out of time, but I really want to thank you again for
being here today. Thank you.
    [The information referred to follows:]

                              Congress of the United States
                           4th District, Connecticut, July 23, 2014

Senator Jay Rockefeller,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Senator John Thune,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Thune,

    I want to thank you both, my friend and colleague Senator
Blumenthal, and the other members of the Senate Commerce Committee for
turning their attention today to the important issue of improving
protections for cruise passengers. This is a personal issue for me. It
has profoundly affected a family in my district and Senator
Blumenthal's home state. In 2005, George Smith IV of Greenwich went
missing while on his honeymoon cruise in the Mediterranean Sea, but the
investigation surrounding his disappearance remains open to this day.
Many blame poor safety regulations and lax oversight of crime scenes on
vessels that operate outside of U.S. territorial waters for the lack of
information surrounding Mr. Smith's disappearance. Since his apparent
death, Mr. Smith's family has been fighting for regulations that would
improve safety on cruise ships and protect cruise ship passengers.
    The fight that began for the Smith family in 2005 and continued
through the signing into law of The Cruise Vessel Security and Safety
Act in 2010, continues today with The Cruise Passenger Protection Act.
This bill builds on the work we did in 2010 by adding in tighter crime
reporting requirements, expanding video surveillance equipment and
record-keeping requirements, and streamlining the Federal government's
tracking and public reporting of alleged crimes on cruise ships. It is
safety improvements like these that will help prevent more avoidable
tragedies like the Smith family's, and I remain just as committed today
as l was when I took office toimproving crime reporting and consumer
safety onboard cruise vessels. I once again thank the Senate Commerce
Committee for its leadership on this important but oft-neglected safety
issue, and urge this bill's swift passage.
            Sincerely,
                               Congressman Jim Himes (CT-4)

    The Chairman. Thank you, Senator Blumenthal.
    There are a lot of questions, a lot of questions.
    Do you know, the thing that amazes me is you have a very
profitable industry. They make a lot of money. They're very
popular. I think their popularity will continue to increase.
Many people have a pleasant experience. They pay virtually no
taxes in the United States, even though they're based in Miami
and a couple of other places.
    Everybody thinks they're getting on an American ship, but
they're getting on a Panamanian. You know, it's always
registered in some other country where there are no taxes and
there is no sense of accountability or responsibility.
    And I say to myself, why is it that they are so resistant
to making some basic changes on things which are so obviously
going to come back to haunt them? We understand that 90 percent
plus or whatever, whether it's a 3,000-person boat or a 6,000--
now I think they're building them 6,000 to 7,000 passengers.
    If you're making the money, you don't have to pay taxes,
you don't pay the Coast Guard for when they come to bail you
out and drag you, or when the FBI is involved you don't pay
them. They have a free ride. They make a lot of money. They
have a very good future.
    So why not, as a matter of business sense--forget humanity
for the moment, but just as a matter of business sense--
wouldn't they take steps to clear up some of these problems
we've been talking about? I mean, I remember when my wife and
I--I'd never done CPR and our children were in high school. We
went and took a lesson in CPR, which I got through, and I think
probably 3 days later I couldn't have repeated what I did,
because there wasn't a focus, there wasn't the same focus,
because it was all something that might or might not happen.
    Why don't they make these, voluntarily make these things?
Why don't they inform you?
    I remember--I've said this a number of times in this
committee--I come from a state with a lot of coal, and coal's a
dangerous occupation, but it's one where miners can be kept
safe if you ventilate the mines and you pay attention.
Operators for the most part don't. They just get the coal out,
and the miners take their losses and get black lung and die
from black lung. But the companies continue to be profitable.
    I don't understand why the cruise industry doesn't spend
the money to fix some of these problems, because it would inure
to their benefit. It would protect them from people like me and
Senator Blumenthal and others who are determined to make them
do what they should be doing, and we'll do that no matter how
many years it takes. But they just push us away. They don't
want to talk. They don't want to discuss, just like they didn't
want to react to any of your situations.
    In modern society, if you're in bankruptcy that argues for
not doing anything. But if you're not in bankruptcy and you're
making a lot of money and these are really good people that you
have, why wouldn't you do that? I simply don't understand that,
and that sense of frustration, the sort of corporate mentality
of ``You're from the Federal Government; don't do anything
about this. What you're doing is you're talking about
regulation.''
    Well, yes, we do regulation, and we did it on the airlines
when pilots were flying way over their limit of being alert and
they had a big airplane crash in Lackawanna, New York, and a
lot of people were killed on a twin-engine, this style, not
jet, and the pilots had gone a long time without sleep. So we
put on requirements they have to have before they get on an
airplane to fly, they have to have eight hours of sleep. If
they don't sleep, OK, they don't sleep, but they have to have
that time to be able to sleep, with time on each side to
prepare for that and then to get up from that.
    If that's government running roughshod over an industry,
that's just not true. It's just not true. It's just common
sense protection of passengers. Airlines are the safest thing
you could possibly be on. You wouldn't know that reading
international news recently. Stay away from certain countries
and air spaces.
    But I don't understand why they won't do it. So one of the
reasons that we have had this hearing today and you have been
patient enough to put up with it and to answer questions and
tell your stories is to put certain colleagues on this
committee in a position where they need to help.
    One of our colleagues said, well, we should pass this as a
separate bill and you shouldn't attach it to the Coast Guard
bill. Everybody knows that the Coast Guard bill is a bill that
you've got to pass. The cruise ships want the Coast Guard bill
to pass. But if you separate them, the Coast Guard bill will
pass, the cruise ship bill will get flushed down the toilet.
    So you don't allow that to happen. You hold them
accountable. It's done in life, it's done in business, it's
done in family situations. You have to take responsibility.
    So I've got a lot of questions here, but I don't feel the
need to ask them because most of them have been in part
responded to. This whole idea of a hotel versus a city, you
know, it's mystifying. When we had our last hearing, the
representative of CLIA, which is their lobbying organization,
sat right where you're sitting, Ms. Ware--you may want to
move----
    [Laughter.]
    The Chairman.--and just dismissed it all. We're doing
everything we possibly can. People have a responsibility for
their own safety.
    Well, that's true, but when--General Motors is discovering
that when certain things don't work in GM cars the entire
Nation gets interested, and then they're pulled before Congress
and they've got to end up paying a whole lot of money to change
their ways and to learn how to run a company with the consumer
in mind.
    I'll just give you one sort of final example. People often
dismiss people that are trying to help consumers, protect
consumers. This committee used to be kind of--the Commerce
Committee was more business-oriented. Now we've tried to make
it people-oriented, consumer-oriented. That's what it's meant
to be.
    I just give you this just to contemplate, because it sounds
so stupid, but it affects people's lives so directly and it's
so nasty. People move and so they call a mover. And not in all
cases, but in some cases the mover comes and they sign a
contract, they load all of their belongings onto the van, the
mover goes five miles and then goes into an alley and calls
them up and says: We're going to triple your price. Sorry about
that, but we're going to triple your price. You have to pay us
three times more money than the contract you signed. You can go
get a lawyer if you want, but you're not going to get your
furniture back because you don't know where we are.
    It's a horrible thing. You just don't let that stuff pass
by. So we're making life more difficult for them and better for
the consumers.
    I don't know. You all made a trip with good spirits, with
good thoughts, with enthusiasm, and ran into terrible problems
and there was nobody to help you. Now, if you had been going on
a little rowboat or something that would have been one thing.
But you were going on a huge corporation's ship, who had all
the experience and the wherewithal, the money, to solve your
problems if you ran into them. But they just didn't.
    The tent city concept that you were talking about, that's
famous throughout the world now because it was such a vile
thing to do to people. Corporations have to be responsible.
    This committee exists, as do others in other areas, to do
oversight, to find out if they're carrying out their businesses
properly, with care. Some mistakes can happen. We understand
that. But when there's this attitude of just neglect--and I was
asking behind me and I'm not sure the answer, but I sort of
remember the last hearing that when you sign the ticket with
that invisible print, that many pages, you give away your
liability and all the rest of it, your ability to have
recourse, but I believe--and I may be wrong, and if I am I
forgive myself, but this is what I remember--that it was in the
signing of the ticket, after your signature was on the ticket,
it was then that you were able to, not take--you were able to
take the sticky covering of the next page, which had that
liability clause, which of course you weren't going to go to
look at, and you couldn't read it even if you decide you wanted
to. And then you could see it, if you could see it.
    That's awful behavior if it was true, and I'm not saying it
was true. I remember that is the case, but I may be wrong.
    But I don't have to be right about that, because what
happened to you was just simply wrong in a modern society from
corporations that are doing very well, are on the upswing, and
have every right to want to make people have a happy experience
and to make sure that they do, because everybody knows that not
everything works out the way it should. There will be problems,
4 days waiting, stranded, and a mother who didn't get any
attention and a 15-year-old girl who gets raped, and your own
case, Ms. Dishman.
    You don't let stuff like that pass, particularly if it
happens with a certain degree of consistency. So that's why
we've had this hearing. It's all in the record. Everything you
said is all in the record. And that bill, if we're going to
pass the Coast Guard bill, which I'll tell you those cruise
lines want because they need that Coast Guard, and that Coast
Guard is so broke it has ships that are very, very old, but
they still function, and they're still used by the cruise ship
lines.
    The minority leader speaking, asking why do we have to do
these things, why can't we do them separately, well, he had a
very clear purpose for asking that question, because he knew if
we did it separately the Coast Guard thing would pass and the
cruise ship thing would fail. It's my job as chairman to make
sure that we don't play the game that way.
    So I just want to, I want to totally thank you, one, for
talking about experiences that are not comfortable to talk
about, doing so in a very forthright way, for educating this
panel. And believe me, just because not all the members are
here, a lot of the staff is, and it's always the staff that
really counts. If you've got good staff you're going to be a
good Senator. If you don't, well.
    So I'm not going to carry this hearing forward, because I
think the points that need to be made have been made, and
that's because you have made them clearly and with firmness and
with certainty, and with a degree of anger, which I share. So
wherever you've come from, go back safely, and I thank you.
    This hearing is adjourned.
    [Whereupon, at 4:08 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV
                           to Laurie Dishman
    Question 1. Passengers can be in for a rude awakening when a crime
happens on a cruise ship,--you can't just call 911 to get the police to
come investigate the crime, you can't go to a U.S. hospital for
treatment, and you can't always just get off the ship or away from your
attacker. How important is it that passengers have an understanding of
the number and types of alleged crimes that occur on cruise ships? Many
parents and children take vacations on cruises ships, is it important
to publicly report the number of alleged crimes that occur against
children? Do you think many parents are aware of the crimes that occur
against children? Are we providing enough onboard support and
assistance for victims on ships?
    Answer. Yes, it is very important. Passengers need to be informed
about the types of crimes and number of crimes that occur on cruise
ships. A passenger needs to know a ship of 6,000+ (floating city)
guests and crew has, NO Police department, NO Fire Department, NO
hospitals like in the U.S. An American citizen would not take a
vacation to a city without being aware of these kinds of crimes that
occur before traveling.
    Parents are not aware and need to be because these crimes are
happening often. The advertisements give a false sense of security with
supervised activities that you can let your children be a part of while
on the ship. Parents need to ask questions they ask a babysitter who
watches their children at home to the cruise lines before allowing
their children out of their site. These are strangers to you and your
children that work for the cruise lines and the ship is full of
thousands of more strangers who are passengers, all with NO background
checks!!!
    Victims do not receive enough onboard support and assistance from
the cruise lines if they become a victim while on the ship. Victims of
sexual assault and Rape need to have a third party assistance that can
immediately assist them in person or via Skype. Speaking as a victim
that was brutally raped by a crew member and I reported it right away
but the Purser and head security guard immediately re-victimized me
(secondary victimization) by telling me, ``Ms. Dishman it sound as if
you need to control your drinking.'' An online hotline would even help
if a victim wasn't able to talk about what happened she could at least
get the best assistance from an expert in the field of working with
victims of Rape and sexual assault. A third party Police is also needed
because if a crew me member commits the crime you have a better chance
for justice and an investigation not a cover up that destroys all the
evidence. On a cruise ship it is actually a perfect place to capture a
criminal because it is a confined location that with the proper
security in place we would see more justice being served.

    Question 2. In past hearings, we have heard from experts that
cruise line contracts include ``extreme limits'' on the company's
liability and that passengers don't understand the rights they are
giving up. From your experiences working with other victims, are the
contracts clear to passengers? Do they have any understanding of the
rights they are giving up? Senior cruise industry representatives have
told Committee staff there is a clear summary for passengers in ticket
contracts. Do you agree with that assessment? How would a summary of
key contract provisions be helpful? If you wanted to get more
information, is there any place you can find helpful information about
contract provisions?
    Answer. The contracts are not clear to the passenger, the type is
hard to read and the travel agent and cruise lines are directing you to
look at the excursions to pre-book before the cruise. A passenger that
goes on a cruise sees all the advertisements on TV that is giving a
false sense of security to take a vacation of a life time.
    I do not agree with the assessment and feel that the cruise lines
need to acknowledge that crime can happen anywhere even on their ships
and to do the right thing, and help their passengers, guests and crew
when something happens.
    The only thing I saw online was the CLIA Passenger Bill of Rights
that I feel doesn't really say anymore then what the cruise lines
ticket says of what I was able to read because the type is so small.

    Question 3. In recent litigation, Carnival has argued that the
passengers' ticket contract makes ``no guarantee for safe passage, a
seaworthy vessel, adequate and wholesome food, and sanitary and safe
living conditions.'' Do you think these provisions are fair to
passengers? Were you surprised to learn that these basic provisions
weren't guaranteed? Do you think this is important information for
passengers to know before booking a cruise?
    Answer. I feel that the provisions are not fair in the contract for
the passengers that are paying to take a vacation that the expectations
in the color brochure and on TV commercials do not say that at all. I
was not surprised after I have learned what is most important to this
cruise industry more than providing a sanitary and safe living
conditions for their passengers, how much money are our passengers
going to spend while on our ship. . .Yes, I feel this is important
information because the passengers see the color brochures and
commercials on TV first and after they pay their money they get the
ticket that they can hardly read and well at that point are so excited
about vacation. It is when they become a victim themselves that they
learn about the laws and rights that you leave at home when traveling
in international waters.
                                 ______

Response to Written Questions Submitted by Hon. John D. Rockefeller IV
                          to Philip M. Gerson
    Question 1. Passengers can be in for a rude awakening when a crime
happens on a cruise ship,--you can't just call 911 to get the police to
come investigate the crime, you can't go to a U.S. hospital for
treatment, and you can't always just get off the ship or away from your
attacker. How important is it that passengers have an understanding of
the number and types of alleged crimes that occur on cruise ships? Many
parents and children take vacations on cruises ships, is it important
to publicly report the number of alleged crimes that occur against
children? Do you think many parents are aware of the crimes that occur
against children? Are we providing enough onboard support and
assistance for victims on ships?
    Answer. Land-based crime prevention measures work. We have reduced
serious crimes over the past few decades. This is no coincidence. It is
because we have increased awareness, prevention measures, and
remediation of victim's losses. Parents and children are misled to
believe that the need for routine protections undertaken on land need
not be utilized at sea. Except for the measures required by the CVSSA
of 2010, there are no victim services for passengers or crew. We need
more reform legislation to empower passengers and crew members to be
able to control their own destiny and have access to the same resources
available on land.

    Question 2. In past hearings, we have heard from experts that
cruise line contracts include ``extreme limits'' on the company's
liability and that passengers don't understand the rights they are
giving up. From your experiences working with other victims, are the
contracts clear to passengers? Do they have any understanding of the
rights they are giving up? Senior cruise industry representatives have
told Committee staff there is a clear summary for passengers in ticket
contracts. Do you agree with that assessment? How would a summary of
key contract provisions be helpful? If you wanted to get more
information, is there any place you can find helpful information about
contract provisions?
    Answer. Plain language disclosures are required for most products
and services in the United States' commercial economy. No such
disclosure is required now. In fact, cruise lines often don't even give
passengers the ``fine print'' (which it literally is when it exists).
Instead, they refer them to website postings which many cannot access
and few read. In my cases, there frequently is no proof from the cruise
lines that any disclosure of the contract was ever made.

    Question 3. In recent litigation, Carnival has argued that the
passengers' ticket contract makes ``no guarantee for safe passage, a
seaworthy vessel, adequate and wholesome food, and sanitary and safe
living conditions.'' Do you think these provisions are fair to
passengers? Were you surprised to learn that these basic provisions
weren't guaranteed? Do you think this is important information for
passengers to know before booking a cruise? In your experience, do
cruise lines try to hide this information from passengers before they
book? How do these types of provisions prevent passengers from getting
justice after something bad happens?
    Answer. The cruise line ticket contract is legally anchored to
traditional maritime law which guarantees little or nothing to
passengers. Everyone should know their legal status onboard before they
disembark. Unfortunately, almost no one does. The industry touts its
safety and security record accomplishments and hides its failures. Full
disclosure is a fundamental concept of commercial relationships which
all Americans embrace in their everyday lives. If everyone understood
the risks and the lack of remedies the marketplace would reduce
passenger traffic unless the industry voluntarily provided full
disclosure and effective remedies equivalent to what we expect on land
that we can get in a courtroom if a resort operator violates our
rights.

    Question 4. The cruise industry tells us that we should think of
cruise ships like floating hotels. They tell us that a cruise vacation
should not be regulated any differently than resort vacations that
happen on land. Mr. Gerson, you addressed this issue in your testimony.
You say that cruise ship passengers have fewer legal rights than people
who vacation at land-based hotels and resorts. Can you explain how this
happens and how this puts cruise passengers at risk?
    Answer. We live in a democracy. We are governed by consent. Though
our democratic process we have established individual rights and public
officials to enforce them. The officials are obliged to serve the
interests of the public and the laws of the land.
    Based on historical maritime principles, a ship is a part of the
flag state. This is the country name printed on the back of most ships.
Thus, passengers are actually in Panama, the Bahamas, Malta, or other
foreign states which have little or none of the legal protections we
all enjoy as Americans and nationals of other developed nations.
    Moreover, onboard any ship the captain/master has absolute control.
So, not only have passengers surrendered their United States legal
rights but they cannot take any measure to protect themselves without
the consent of the vessel operator acting through the captain/master.
    Yes, these are floating resorts analogous to land-based
environments. However, there are no constitutional rights, no laws, no
courts, no police, and no rights to protect one self.

                                  <all>
</pre></body></html>
